<html>
<title> - BUILDING IRAQI SECURITY FORCES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                     BUILDING IRAQI SECURITY FORCES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2005

                               __________

                           Serial No. 109-19

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-923                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 14, 2005...................................     1
Statement of:
    Christoff, Joseph, Director, International Affairs and Trade, 
      U.S. Government Accountability Office; Peter R. Rodman, 
      Assistant Secretary of Defense, International Security 
      Affairs, U.S. Department of Defense, accompanied by Rear 
      Admiral William D. Sullivan, vice-director, Strategic Plans 
      and Policy of the Joint Chiefs of Staff; and Ambassador 
      Richard A. Jones, Senior Advisor to the Secretary and 
      Coordinator for Iraq, U.S. Department of State, accompanied 
      by Bill Todd, Principal Deputy Assistant, Secretary for the 
      Bureau of International Narcotics and Law Enforcement 
      Affairs, U.S. Department of State..........................    15
        Christoff, Joseph........................................    15
        Jones, Ambassador Richard................................    39
        Rodman, Peter R..........................................    39
    Cordesman, Professor Anthony H., Arleigh A. Burke Chair in 
      Strategy, Center for Strategic and International Studies; 
      Kalev Sepp, professor, Naval Postgraduate School; and Peter 
      Khalil, former Coalition Provisional Authority official, 
      the Brookings Institution..................................   104
        Cordesman, Professor Anthony H...........................   104
        Khalil, Peter............................................   148
        Sepp, Kavlev I...........................................   133
Letters, statements, etc., submitted for the record by:
    Christoff, Joseph, Director, International Affairs and Trade, 
      U.S. Government Accountability Office, prepared statement 
      of.........................................................    17
    Cordesman, Professor Anthony H., Arleigh A. Burke Chair in 
      Strategy, Center for Strategic and International Studies, 
      prepared statement of......................................   108
    Jones, Ambassador Richard A., Senior Advisor to the Secretary 
      and Coordinator for Iraq, U.S. Department of State, 
      prepared statement of......................................    41
    Khalil, Peter, former Coalition Provisional Authority 
      official, the Brookings Institution, prepared statement of.   153
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Memo dated January 5, 2005...............................    78
        Prepared statement of....................................     8
    Sepp, Kalev, professor, Naval Postgraduate School, prepared 
      statement of...............................................   137
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Sullivan, Rear Admiral William D., vice-director, Strategic 
      Plans and Policy of the Joint Chiefs of Staff, historical 
      perspective on ISF reporting...............................    51
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        E-mail from Ambassador Jones.............................    54
        Letter dated February 16, 2005...........................    86
        Memo by U.S. Embassy, Kuwait.............................    58

 
                     BUILDING IRAQI SECURITY FORCES

                              ----------                              


                         MONDAY, MARCH 14, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, and Kucinich.
    Also present: Representative Waxman.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D., senior policy advisor; 
Thomas Costa, professional staff member; Robert A Briggs, 
clerk; Hagar Hajjar, intern; Jeff Baran and David Rapallo, 
minority counsels; Andrew Su, minority professional staff 
member; Earley Green, minority chief clerk; and Jean Gosa, 
minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Building Iraqi Security Forces,'' 
is called to order.
    Election day in Iraq saw less violence than most days 
before or since. Why? Broad travel restrictions certainly 
helped, but more significantly, Iraqi security forces, knowing 
crowded polling places made attractive targets, stepped forward 
to protect their emerging democracy; at times they did so 
heroically. In Iraq that day, we heard reports of police 
sacrificing themselves to tackle a would-be suicide bomber so 
voting could continue.
    Building on that loyalty, pride and sense of ownership 
evident that day and every day is the key to security in the 
new Iraq. Current U.S. strategy seeks to bring Iraqi forces 
forward in the counterinsurgency fight as quickly as possible 
while transitioning coalition forces to an embedded advisory 
role; but as we and the Iraqis learned last year, too abrupt a 
transfer of front line security to minimally trained, weakly 
motivated and poorly led Iraqi forces risks defeats and 
defections and emboldens the terrorists.
    The fiscal year 2005 supplemental appropriation bill 
contained $5.7 billion to train and equip Iraqi security 
forces, adding to the $5 billion provided last year. The 
fundamental question behind these numbers; how will we and the 
Iraqis know with the right number of forces with the right 
skills and equipment are ready to assume the difficult, 
evolving security mission there? The answer is not just 
numbers, capabilities matter as much as quantities. Decisions 
about the strategist roles, doctrines, tactics and command 
structures of Iraqi security forces will have profound 
implications on their ability to confront a violent insurgency 
while nurturing a democratic one. But numbers do matter. We 
need to know how many have been trained, how many will be 
trained, and how many will be deployed by the Iraqi Ministries 
of Defense and Interior to secure their nation.
    The effort faces daunting challenges. To fill the vacuum 
created by the abrupt dissolution of the entire army and police 
force after the fall of Hussein's regime, Iraqi security 
personnel must learn to fight while they fight. Uneven vetting 
of recruits and limited offsite training has left local police 
units undermanned, under-motivated and vulnerable to 
infiltration by the very insurgents they're meant to fight. 
Some in the new predominantly Shiite Iraqi government have 
proposed a re-deBa'athification of security forces, a move 
which others fear could further destabilize rather than help 
secure Iraq. But all these efforts should be guided and 
inspired by individual and collective examples of Iraqi 
determination to seize a safer future.
    Mithal a-Alusi is a Sunni and the first Iraqi political 
official to travel to Israel to address an antiterrorism 
conference. For his courage, he was removed from his position 
on the De-Ba'athification Commission and he lost his personal 
security protection. On February 8th, his two sons were gunned 
down in Baghdad, and he still remains a target. When I met him 
here 2 weeks ago and offered to help him move to the United 
States for his own protection, all he wanted was to go back to 
Iraq and help his nation become a democracy.
    As a recent article on a-Alusi observed, when you hear it 
asked whether Iraqis will fight for their own freedom, ask 
yourself whether it is possible to fight harder than Mithal a-
Alusi.
    In the January 30th election, his and more than 8 million 
other purple index fingers pointed the way to a peaceful and 
democratic future for the nation. Today we ask how we can best 
help them fulfill that destiny.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.001
    
    [GRAPHIC] [TIFF OMITTED] T0923.002
    
    Mr. Shays. The Chair at this time recognizes the ranking 
member, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    To the witnesses, I understand that shortly we're going to 
have the honor of having our ranking member, Mr. Waxman, here, 
and I look forward to his presence as well.
    I want to first begin by thanking the men and women who 
wear the uniform of this country and who serve in the Armed 
Forces and who serve valiantly and bravely in Iraq and around 
the world. I want to thank their families for giving their sons 
and daughters, their husbands and wives to this Nation for 
service. Their service is honorable, and no matter what our 
position happens to be with respect to this administration's 
policy, we can all agree that the men and women who serve ought 
to be honored.
    I want to thank the chairman for holding the hearing, and I 
want to welcome the witnesses.
    As the key investigative and oversight committee in 
Congress, we're the ones who must shine the light of truth on 
the security situation in Iraq. The truth, however, is elusive. 
This Congress has been misled time and time again about this 
war by this administration. This Congress has been told that we 
needed to strike Iraq preemptively in order to find weapons of 
mass destruction. We have not found a single WMD. In fact, the 
administration has given up to not even looking for WMDs 
anymore. We were also told that the United States would be 
greeted as liberators, yet 1,500 brave American soldiers have 
died so far, and the number increases daily, whether it is by 
suicide attacks or improvised explosive devices. Many Iraqi 
security forces and innocent civilians have also died 
needlessly. And there are thousands upon thousands of our 
soldiers who have been injured, as well as innocent civilians 
injured as well.
    We were told that the administration had a plan for the 
occupation of Iraq and for reconstruction. We were told 
contracts would be openly bid, and that the process would be 
transparent; yet the Inspector General for the Coalition 
Provisional Authority recently reported that the Coalition 
Provisional Authority could not properly account for a single 
penny of some $9 billion in funds turned over by the U.S.-led 
authority to the interim Iraqi government. Congress has spent 
$5.8 billion already on building Iraqi security forces, and now 
we're being asked to foot another $82 billion in costs for 
Iraq, including $5.7 billion to build Iraqi security forces. Is 
there a plan for spending this money wisely, or is the plan to 
keep throwing good money after bad? Will this $11.5 billion be 
properly accounted for as opposed to the $9 billion in funds 
that have not been properly accounted for?
    Mr. Chairman, the current course we are on in Iraq is 
absolutely unacceptable. This administration seems to be 
blinded by and ignorant to the realities in Iraq. It is 
determined to see its policies through no matter how many 
wounded and how many casualties there may be, no matter how 
foolish and wrong-headed those policies may be.
    We're told that these security forces need more time and 
more funds for training and for leaders to emerge to assume 
chains of command. Mr. Chairman, this administration has had 
enough time and more than enough funds already. There is 
nothing more than a money pit that drains funds from our 
Nation's coffers.
    The real problem is the administration has refused to admit 
it has made any mistakes. Violence, particularly that aimed 
specifically against these Iraqi security forces, has escalated 
in recent weeks despite the presence of these forces at polling 
places during the holding of the national elections in January. 
125 Iraqi National Guard and police recruits died at a medical 
clinic recently at the hands of a suicide car bomber. Nearly 
every day other Iraqi security forces are killed by the 
improvised explosive devices or by suicide bombers. Insurgents 
remain in control over numerous areas of the country, and we 
are sending out security forces who are lightly armed, have 
only a few weeks or months of training, have limited mobility 
and continue to incur problems of recruitment and retention.
    Most of these security forces have never even handled or 
shot an AK-47. Most are being used in support roles, not in 
fighting the insurgents who are hardened and hell bent on 
making sure that our mission there fails. We are sending these 
security forces into situations against an enemy who, it is 
well understood, they cannot possibly defeat. How do we 
honestly expect them to be ready by the end of this year or 
next?
    None of these problems are a secret, yet this 
administration continues to mislead the American people and the 
Congress, its only solution to ask for more and more money and 
more time in the hopes the situation will improve, while their 
stubbornness is costing lives.
    And more importantly, we also want to see our soldiers 
return home. We all want to see democracy succeed and flourish 
in Iraq, but there are lives here at stake, both American and 
Iraqi, and we still have no exit strategy. And Mr. Chairman, 
without an exit strategy, I don't see how in the world we can 
expect the American people to approve spending another dime in 
Iraq. Without an exit strategy, I don't understand how we can 
expect the American people to continue to approve of the 
sacrifice of their sons and daughters and mothers and fathers. 
What are we supposed to tell our constituents whose loved ones 
are missing from home, wounded or killed in service to their 
country? When will our soldiers be coming home?
    It seems to me these deadlines for completing training and 
for rebuilding Iraqi security forces are completely artificial. 
Nobody knows how long the process will take. And we cannot 
support the Iraqis indefinitely financially or at a cost to our 
own Nation's military readiness. That is why I believe the 
United Nations should step in and shoulder the burden for 
training these security forces. They have the experience, long-
term resolve, and the multi-national support to finish the job, 
and I urge Secretary Rice to work with Secretary General Kofi 
Annan to find a role for U.N. peacekeepers in Iraq. These are 
the real questions, the tough questions which need to be asked 
by the Congress about the long-term stability and security of 
Iraq. We need real answers before we can agree to new funding 
requests, we cannot cover our eyes and pretend problems will go 
away if we just sink more money into them.
    Mr. Chairman, I hope all of our witnesses are forthcoming 
and candid in their testimonies. It's in everyone's interest 
that they speak honestly to the problems in building Iraqi 
security forces. We want equality troops in place and ready to 
take over, not just a quantitative figure that looks good on 
paper.
    I led the effort in this House in challenging that war. It 
was a wrong war, and it was wrong to send our troops there, and 
we need to bring them home. And I hope this hearing is going to 
be the beginning of that step. Thank you.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T0923.003

[GRAPHIC] [TIFF OMITTED] T0923.004

[GRAPHIC] [TIFF OMITTED] T0923.005

[GRAPHIC] [TIFF OMITTED] T0923.006

[GRAPHIC] [TIFF OMITTED] T0923.007

[GRAPHIC] [TIFF OMITTED] T0923.008

    Mr. Shays. The chairman recognizes Mr. Turner, the former 
vice chairman of the committee.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Chairman, I thank you for your efforts to continue our 
review of the operations occurring in Iraq and how we can 
improve them, both to make the country safer and more stable 
for our men and women in uniform, and for the Iraqi citizens.
    I have had two opportunities to travel to Iraq, once in 
October 2003, and again this January, 2 weeks prior to the 
elections. During the last trip we had the opportunity to 
review some of the training opportunities for the Iraqi 
soldiers, and also an opportunity to look at some of the 
exercises that they were conducting, and it certainly is 
incredibly important work, not only for transition from a U.S.-
led to an Iraqi-led security effort, but obviously for any hope 
of independence for Iraq as a nation.
    It is certainly welcome that we had the announcement by 
NATO of their commitment to assist in this process. I know 
there are a number of issues that each of you will want to tell 
us today, and we will have a number of questions concerning how 
we can be effective, and but there is no question this is very 
important work.
    I thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    At this time, the chairman will announce our panel before 
swearing them in. Mr. Joseph Christoff, Director International 
Affairs and Trade, U.S. Government Accountability Office, the 
Honorable Peter R. Rodman, Assistant Secretary of Defense, 
International Security Affairs, U.S. Department of Defense, 
accompanied by Rear Admiral William D. Sullivan, Vice-Director 
of Strategic Plans and Policy of the Joint Chiefs of Staff, as 
well as Ambassador Richard A. Jones, Senior Advisor to the 
Secretary and Coordinator for Iraq, U.S. Department of State, 
accompanied by Mr. Bill Todd, Principal Deputy Assistant 
Secretary for the Bureau of International Narcotics and Law 
Enforcement Affairs, U.S. Department of State.
    I just want to state that I know that some of you had plans 
to be elsewhere, and maybe your testimony has been prepared a 
little late, and I understand that you fully tried to 
accommodate the subcommittee, and the subcommittee sincerely 
appreciates it.
    Whether people supported the war or opposed the war, 
ultimately we want success, and we know that each and every one 
of you are working--your responsibilities to work toward that 
ultimate goal of success. So at this time, if I could just take 
care of business first in terms of asking unanimous consent 
that all members of the subcommittee be permitted to place an 
opening statement in the record and that the record remain open 
for the period of 3 days for that purpose, and without 
objection, so orders.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record, 
and without objection, so ordered.
    And at this time if you would stand, we will swear you in 
as we do. There is only one person who has never been sworn in 
in my 8 years of chairing the subcommittee, and that was--or 10 
years, and that was the Senator from West Virginia; I chickened 
out.
    [Witnesses sworn.]
    Mr. Shays. I note for the record our witnesses have 
responded in the affirmative.
    I think that we're going to start with Mr. Christoff, I 
believe that's the case, and then Mr. Rodman, you will be 
going. Secretary. And then we will proceed down the line.
    Thank you, Mr. Christoff.

STATEMENTS OF JOSEPH CHRISTOFF, DIRECTOR, INTERNATIONAL AFFAIRS 
  AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; PETER R. 
RODMAN, ASSISTANT SECRETARY OF DEFENSE, INTERNATIONAL SECURITY 
   AFFAIRS, U.S. DEPARTMENT OF DEFENSE, ACCOMPANIED BY REAR 
ADMIRAL WILLIAM D. SULLIVAN, VICE-DIRECTOR, STRATEGIC PLANS AND 
POLICY OF THE JOINT CHIEFS OF STAFF; AND AMBASSADOR RICHARD A. 
  JONES, SENIOR ADVISOR TO THE SECRETARY AND COORDINATOR FOR 
   IRAQ, U.S. DEPARTMENT OF STATE, ACCOMPANIED BY BILL TODD, 
    PRINCIPAL DEPUTY ASSISTANT, SECRETARY FOR THE BUREAU OF 
   INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

                 STATEMENT OF JOSEPH CHRISTOFF

    Mr. Christoff. Mr. Chairman, and members of the 
subcommittee, thank you for inviting GAO to this important 
hearing.
    My statement today is based on GAO's ongoing work reviewing 
the security situation in Iraqi. In summary, we found the 
following: Data on the status of Iraqi security forces is 
unreliable and provides limited information on their 
capabilities. And the coalition must fight a growing insurgency 
while overcoming problems in the force structure, readiness and 
leadership of Iraqi troops.
    Let me first describe the multi-national forces plan for 
transferring security responsibilities to the Iraqis. Under an 
October 2003 plan, Iraqi forces would assume increasing 
responsibility for security, first in local and regional areas, 
and then throughout the country. As the Iraqis assume more 
control coalition forces could begin to draw down.
    In the summer of 2004, MNF-I developed a classified 
campaign plan based on this transition concept. As part of that 
plan, MNF-I intends to train and equip 271,000 Iraqi security 
forces by July 2006. As of late February 2005, the State 
Department reports that about 82,000 Iraqi police and about 
60,000 military forces have been trained and equipped. However, 
these data do not provide reliable information on the status of 
Iraqi forces. For example, the number of trained police 
includes those who are absent without leave, which DOD 
estimates to be in the tens of thousands. Further, State no 
longer reports on the extent to which Iraqi security forces 
have their required weapons, vehicles and equipment. 
Accordingly, it is difficult to assess the status of efforts to 
train and equip Iraqi security forces.
    It is equally difficult to judge the capabilities of Iraqi 
security forces because MNF-I is now developing a system to 
assess unit readiness. This system will help to assess the 
extent to which Iraqi forces can operate independently of U.S. 
assistance. However, this system will take time to implement.
    MNF-I faces additional challenges. First, the Iraqi force 
structure is changing, making it difficult for the coalition to 
adequately train, equip and sustain Iraqi force. For example, 
the required number of police and border patrol forces has 
increased, the National Guard was merged into the Army, and 
special counterinsurgency units were formed.
    The second challenge is developing strong Iraqi leadership 
and loyalty throughout the chain of command. Over the past 
year, coalition forces have observed questionable loyalty some 
Iraqi forces, poor leadership in the Iraqi units, and the 
destabilizing influence of militias. To address some of these 
problems, MNF-I plans to expand its use of military and police 
advisor teams within Iraqi units.
    The third challenge is developing a police structure that 
upholds the rule of law while operating in a hostile 
environment. Most police were trained and equipped to conduct 
law enforcement functions in a peaceful environment, they were 
not trained to fight the insurgency. In December 2004, MNF-I 
was adding paramilitary skills to the training of the some 
police units. But in addition, the State Department has found 
that police in some areas have committed human rights abuses.
    The coalition faces these collective challenges while 
confronting a growing insurgency. DIA data shows that incidents 
against the coalition, Iraqi forces and civilians increased 
significantly from June 2003 to February 2005. As shown in 
figure 1 of my statement, each monthly peak in the number of 
violent incidents is followed by a higher average number of 
attacks in subsequent months. In January 2005, General Casey 
stated that the insurgency has sufficient resources to maintain 
about 50 to 60 attacks per day in Sunni areas. He concluded 
that only a combination of political, military, economic and 
communications efforts would defeat the insurgency.
    Since April 2003, Congress has provided about $5.8 billion 
to develop Iraqi security forces. Last month the President, an 
additional appropriation of $5.7 billion. However, without 
reliable information, Congress may find it difficult to judge 
how Federal funds are achieving the goal of transferring 
security responsibilities to the Iraqis.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer the subcommittee's questions.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Christoff follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.009
    
    [GRAPHIC] [TIFF OMITTED] T0923.010
    
    [GRAPHIC] [TIFF OMITTED] T0923.011
    
    [GRAPHIC] [TIFF OMITTED] T0923.012
    
    [GRAPHIC] [TIFF OMITTED] T0923.013
    
    [GRAPHIC] [TIFF OMITTED] T0923.014
    
    [GRAPHIC] [TIFF OMITTED] T0923.015
    
    [GRAPHIC] [TIFF OMITTED] T0923.016
    
    [GRAPHIC] [TIFF OMITTED] T0923.017
    
    [GRAPHIC] [TIFF OMITTED] T0923.018
    
    [GRAPHIC] [TIFF OMITTED] T0923.019
    
    [GRAPHIC] [TIFF OMITTED] T0923.020
    
    [GRAPHIC] [TIFF OMITTED] T0923.021
    
    [GRAPHIC] [TIFF OMITTED] T0923.022
    
    [GRAPHIC] [TIFF OMITTED] T0923.023
    
    [GRAPHIC] [TIFF OMITTED] T0923.024
    
    [GRAPHIC] [TIFF OMITTED] T0923.025
    
    [GRAPHIC] [TIFF OMITTED] T0923.026
    
    [GRAPHIC] [TIFF OMITTED] T0923.027
    
    [GRAPHIC] [TIFF OMITTED] T0923.028
    
    [GRAPHIC] [TIFF OMITTED] T0923.029
    
    [GRAPHIC] [TIFF OMITTED] T0923.030
    
    Mr. Shays. Secretary Rodman, we will be going to you, and 
then to you Ambassador Jones. And then Admiral Sullivan, will 
you have testimony that you would like to share as well, a 
statement?
    Admiral Sullivan. I do, yes.
    Mr. Shays. And Mr. Todd? OK. So we will proceed that way.
    Assistant Secretary.

                  STATEMENT OF PETER R. RODMAN

    Mr. Rodman. Thank you, Mr. Chairman. Thank you for your 
courtesy. I do not have a prepared statement, but I would like 
to make a few introductory remarks, if I may, to set the 
context of what my colleagues will share with the rest of the 
committee.
    Our strategy in Iraq is political as much as it is 
military, that's why you have before you a panel representing 
the Department of State as well as the Department of Defense.
    In a nutshell, our strategy is to help Iraqis build new 
institutions, to fill the vacuum left by the removal of the old 
regime, political institutions, economic institutions, security 
institutions. So, by these political means, we are helping 
empower the moderate Iraqis who represent the overwhelming 
majority of the country. We help empower the moderates, and we 
help further isolate the extremists even while we continue, we 
and the coalition and the Iraqi forces continue to hunt down 
the enemy by military means.
    The political strategy is exemplified most dramatically by 
the elections we saw on January 30th. As you know, this is the 
beginning of a process that we hope, we expect to unfold 
through the remainder of the year. On Wednesday, this 
transitional national assembly that was elected by those 
elections will have its first session, we expect a transitional 
government to be formed very quickly. This summer, a 
constitution will be drafted, which will be submitted to 
popular referendum, and by the end of the year, new elections 
will be held under the new permanent constitution.
    On the military side, the focus is now on training, 
training Iraqis military and police to take on increasing 
responsibility for their own security. That's the subject that 
Admiral Sullivan will speak to.
    Ambassador Jones, as you know, has served in Baghdad, and 
he is, I think, very qualified to speak about some of the 
political issues, as well an as some of the police training 
issues which the Department of State is involved in. But with 
that, let me turn it over to my colleagues.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you. Ambassador Jones. Great to have you 
here, and thank you for your service in Iraq.

             STATEMENT OF AMBASSADOR RICHARD JONES

    Ambassador Jones. Thank you very much Mr. Chairman. My name 
is Richard H. Jones; I am the Secretary of State Senior Advisor 
and Coordinator for Iraq policy.
    As has been pointed out, prior to assuming these duties I 
served as the American ambassador in Kuwait, and during that 
period I spent 7\1/2\ months as the Chief Policy Officer and 
Deputy Administrator of the Coalition Provisional Authority. 
That experience, I believe, has given me unique perspectives on 
many of the issues that you will be discussing today.
    I have a longer statement for the record, Mr. Chairman, but 
if you would allow me to summarize it briefly.
    Mr. Chairman, you said that the ultimate goal in Iraq is 
success; I couldn't agree more. The question is, what does 
success mean? Well, for Iraq, success means a country that is 
capable of defending its democracy from enemies, domestic and 
foreign, who take up arms against it.
    Ultimately, only Iraq can successfully defend Iraq. Right 
now, of course, the United States is bearing much of the brunt 
of the fighting of the insurgency, but Iraqis are taking on an 
increasing role. My colleagues from the Department of Defense 
are here to discuss our efforts to develop Iraqi security 
forces that can take the leading role in combating these 
insurgents. That is, if you will, the inner most circle of 
security, but there are other circles. One of several outer 
circles involves the development of civilian police and 
judicial correction systems that can enforce the rule of law 
and guard against the type of criminality that goes hand in 
hand with the insurgency--kidnapping, hostage taking, narcotics 
smuggling and so on. The State Department's Bureau of 
International Narcotics and Law Enforcement takes the lead in 
that effort. My colleague, Bill Todd, is here to take questions 
on specifics in that area.
    But we must consider other circles, for example, we should 
consider a circle outside the security area, for example, a 
reconstruction and economic policy efforts, to root out any 
economic basis for the insurgency by creating the 
infrastructure and policy tools necessary for sustainable 
development of a sound market economy. Such an economy will 
inevitably create meaningful employment opportunities that 
allow people to lead normal lives and lessen the attraction of 
taking up arms.
    There is another outer circle, the efforts to create a 
Democratic political system, which Assistant Secretary Rodman 
mentioned. A system for which the security forces will 
willingly fight, a system which keeps the police and justice 
systems working and which ensures that the fruits of 
reconstruction and economic development are available to all 
Iraqis. All of these circles are necessary for security and 
they all reinforce one another. We view each of them as 
essential to success in Iraq.
    Mr. Chairman, during Saddam Hussein's 35-year reign Iraq's 
police force and criminal justice system were institutions of 
public repression, intelligence gathering and arbitrary 
violence; they were state agencies to be feared.
    Our programs must totally rebuild and reorient both a 
civilian police institution and a criminal justice system to 
reflect democratic values, respect for human rights and 
adherence to the rule of law. Achieving these objectives 
requires intense effort and a long-term commitment. Our police 
development efforts have made an important start in meeting the 
challenges, and they will continue to do so.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much, Ambassador.
    [The prepared statement of Ambassador Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.031
    
    [GRAPHIC] [TIFF OMITTED] T0923.032
    
    [GRAPHIC] [TIFF OMITTED] T0923.033
    
    [GRAPHIC] [TIFF OMITTED] T0923.034
    
    [GRAPHIC] [TIFF OMITTED] T0923.035
    
    [GRAPHIC] [TIFF OMITTED] T0923.036
    
    [GRAPHIC] [TIFF OMITTED] T0923.037
    
    Mr. Shays. Admiral Sullivan.
    Admiral Sullivan. Thank you, Mr. Chairman. Congressman 
Kucinich, thank you for the invitation to be here today to 
discuss our plans to develop Iraqi security forces.
    I do not have a prepared statement or an opening statement. 
What I have done, however, is brought a couple of slides which 
are on the story boards off to your left which, if you think it 
will help facilitate the discussion, I would be happy----
    Mr. Shays. That would be helpful, thank you.
    Admiral Sullivan. I would be happy to walk you through 
those slides and then I will take your questions.
    The first slide you see tracks the history of how we have 
been accounting for Iraqi security forces, and I hope will go 
along way toward explaining how these numbers have changed 
overtime. At the far left side of the slide is the beginning in 
October 2003, and the red line represents how security forces 
were tracked up until approximately April 2004.
    Mr. Shays. Excuse me, 1 second. I am going to try to--
because I think this is important. I have no objection if 
anyone from the press wants to just sit in the corner over 
there if they would like to see these. So if anybody would like 
to, they could do that. If we can turn it just a little more 
this way. Anybody else is welcome to as well.
    Maybe what you could do, since the press has moved over, 
why don't you move this closer to us, OK. Just bring this board 
right there, right there is good.
    David, why don't you--folks, seriously, just come on right 
up there.
    And why don't you turn it more on an angle so the panel can 
see it as well. Keep going, keep going, keep going, no, I'm 
sorry, there is too much I'm forgetting for these folks there. 
Can you see it over there, David? OK, that's good.
    Do you mind starting over again, and just give us----
    Admiral Sullivan. Not at all, sir.
    Mr. Shays. And give us what the axis means as well; kind of 
introduce this slide.
    Admiral Sullivan. Yes, sir.
    As you look down the left side of the axis you see raw 
numbers of Iraqi security forces. And along the right side you 
see a calendar with dates running from October 2003 through the 
present--actually, through January 2005.
    Beginning with the red lines, when we began accounting for 
and tracking Iraqi security forces, we were essentially 
tracking those that were simply on the payroll, and as we did 
self-assessments and took a look at what that really meant, we 
found that was not a very accurate way to count. In many cases, 
individuals who were not actually performing any security 
duties were being counted because they were held on the 
payroll.
    Statement, we sent General Eichenberry, who had served in 
Afghanistan and had been involved in the buildup of the Afghan 
National Army, to Iraq to do an independent assessment at the 
request of General Abizaid to look at how we were measuring the 
growth of Iraqi security forces.
    Shortly after that were the events in Fallujah in April 
2004 when we found when under fire many of the Iraqi security 
forces did not perform up to standards; they either didn't show 
up, or they ran--not all of them----
    Mr. Shays. Where would that be in your graph?
    Admiral Sullivan. Just to the right of where Eichenberry 
assessment, the first star at the high point----
    Mr. Shays. I'm still on the red line.
    Admiral Sullivan. Yes, sir.
    Mr. Shays. OK.
    Admiral Sullivan. So as a result of both the assessments 
that had been done in theater as well as the experiences of 
April 2004, it was determined that we would only start counting 
and reporting those Iraqi security forces that had actually 
been through the training programs that were being sponsored by 
the Coalition. What that did to your numbers, as you see the 
dotted line drop from April 2004 to May 2004 was took us from 
about 206,000 total Iraqi security forces to about 132,000 
Iraqi security forces.
    We continued to report in that manner until approximately 
August 2004. In the meantime, General Petraeus had come on in 
July and stood up the multinational security training command 
in Iraq and done his own assessment and realized that for 
various reasons, not all of the graduates of the various 
security courses were being equipped as they came out of school 
for various supply reasons and whatnot. At the same time, we 
looked at something called the Facilities Protection Services, 
which was services that were hired by the various ministries to 
provide night watchman-type security to those ministries. 
Because those individuals were not performing duties that were 
directly responsible for security in the country or fighting 
the insurgency, we tried to stop counting the Facilities 
Protection Service at the same time that we changed our own 
standard to only counting those Iraqi security forces that had 
been through the MNF-TCI training and were equipped to the 
level that they were required to be equipped for the duties 
that they were to perform.
    So you saw a drop between August 2004, where we were at 
about 160,000 to September 2004, where the number dropped to 
90,000. So that drop was accounted for by only including those 
that were trained and equipped, and dropping the Facilities 
Protection Services off the roles.
    We have continued to use that same standard through today. 
We are just now beginning, and they are developing the metrics 
in country, to begin a qualitative assessment of how the 
various Iraqi security forces are doing, modelling it after the 
kinds of systems we use for our own military to measure unit 
readiness.
    I think it is important to point out that we have 
continually assessed the way that we are developing security 
forces and the way that we're measuring the progress of those 
security forces, and we have adjusted our plan and our 
reporting as we go through that.
    I will be happy to take any questions you might have on 
this particular chart----
    Mr. Shays. We will come back to that. Do you have another 
chart?
    Admiral Sullivan. I do have another chart, if we can swap 
them, please.
    This second chart provides you the numbers as of our latest 
report from theatre of what we are considering trained and 
equipped forces in both Ministry of Interior and the Ministry 
of Defense. Now these numbers will change this week as we get 
this week's report in from Baghdad.
    Now I have divided it up into administrative interior 
forces, which as correctly stated by Mr. Christoff, roughly 
82,000 MOI security forces. And in the administrative defense, 
which includes the Army, the National Guard, the intervention 
and special operations forces, as well as the Air Force and 
Navy, were just over 60,000 trained and equipped.
    I draw your attention to the two asterisks. The numbers per 
Ministry of Interior forces include people who might be AWOL, 
as Representative Kucinich described, because we aren't able to 
accurately track the police and Ministry of Interior forces the 
way we are the Ministry of Defense forces, and I will explain 
that. So if you look at the double asterisk under Ministry of 
Defense, you will see that number reflects anybody who is AWOL 
or on leave or otherwise not on duty.
    The reason we can track the Ministry of Defense is for the 
most part these forces live in Garrison, they get up every 
morning and there is a head count so the unit commanders know 
how many people they have and whether they are there for duty 
or not. The administrative interior forces are different. Like 
other police forces they operate on a shift-type cycle, and 
there is a very significant cultural difference here. And this 
existed prior to the fall of the Hussein regime and exists 
today, and that is that they don't have a central banking 
system and automatic deposit system for the people in Iraq like 
we do in our country.
    When I get my paycheck, I don't have to do anything, it 
goes right into my bank account. These people get paid in 
person. If they are living away from their families, the way 
they get that pay home is by going home and dolling out the 
money to their families. And this has been a cultural thing 
with the Iraqis throughout time.
    Under the Saddam regime, when they went home--and maybe 
they stayed home and helped bring in a crop and didn't report 
back for duty when they were supposed to, they weren't punished 
like we would punish our own people for failing to report for 
duty. Their enlistment was extended for the number of days that 
they were absent without leave. So that's one of the things 
that we're dealing with on the AWOL side is a cultural as well 
as a logistical problem for these people to get money to their 
families or to help their families in their hometowns.
    So with those two slides as backdrop, I'm prepared to 
answer your questions.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.038
    
    [GRAPHIC] [TIFF OMITTED] T0923.039
    
    Mr. Shays. Thank you very much. We were given this slide 
here--so we have a sheet----
    Admiral Sullivan. That should be the same.
    Mr. Shays. 142, I think it is the exact same. It says dated 
as of March 7th.
    Admiral Sullivan. Yes, sir.
    Mr. Shays. So we have that one to refer to, so maybe we 
should put the other board up. And it would be helpful to get 
this, just for the record, in paper size if you are able to do 
that.
    Mr. Waxman has walked in and I would like to let him start 
out because he hasn't yet spoken. Is there any comments before 
any--Mr. Secretary, do you have any additional comment before 
we start the questions? Well, let me just say that you are 
giving us something to which we can work with and it is very 
appreciated, and obviously there will be a number of questions.
    What I would like to do is leave 10 minutes to pursue the 
questions, and that way we can get into it more.
    So Mr. Waxman, you have the floor.
    Mr. Waxman. Well, thank you very much, Mr. Chairman.
    I want to ask Ambassador Jones some questions.
    This morning I sent a letter to President Bush revealing 
that the Pentagon's own auditors determined that Halliburton 
overcharged by at least $100 million under its no-bid Iraqi oil 
contract. Most of the overcharges were for petroleum brought in 
from Kuwait during the time you were Ambassador. For months 
Halliburton's subcontractor in Kuwait was a company called 
Altanmia, a commercial marketing corporation, and they charged 
inflated prices to import fuel. In late 2003, the Army Corps of 
Engineers sought out lower-priced alternatives to Altanmia.
    However, based on documents this committee obtained from 
the State Department, it appears that you personally intervened 
to halt this effort and keep the Kuwait company. On December 2, 
2003 you sent on an e-mail saying, ``Tell KBR, Halliburton's 
subsidiary, to get off their butts and conclude deals with 
Kuwait now. Tell them we want a deal done with Altanmia within 
24 hours, and don't take any excuses. If Ambassador Bremer 
hears that KBR is still dragging its feet, he will be livid.''
    You wrote that e-mail, didn't you? Is that correct?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.040
    
    Ambassador Jones. That is an excerpt from an e-mail I sent, 
yes.
    Mr. Waxman. Why did you write it?
    Ambassador Jones. Why did I write it?
    Mr. Waxman. Yes.
    Ambassador Jones. Congressman, I wrote that e-mail in my 
capacity as the Chief Policy Officer and the Deputy 
Administrator of Iraq, duties that I assumed on November 17th 
of that year, about 2 weeks prior to the writing of that e-
mail.
    When I assumed those duties, one of the first jobs 
Ambassador Bremer gave me was to increase the supply of 
humanitarian fuels for the Iraqi people. Now they had gas lines 
of considerable length in the summer, and we had a very 
difficult time in arranging fuel supplies for the Iraqi people 
at that time. The situation in November was trending along 
lines similar to what Ambassador Bremer had seen in the summer. 
He was very anxious to increase the supply of fuel for the 
Iraqi people, and so he asked me to undertake this, even though 
this was actually not in my area of normal responsibility, 
because my counterpart had not yet arrived in country----
    Mr. Waxman. Let me ask you this; there was an emergency in 
May 2003 right after the hostilities ended, and the auditors 
took that into account, they said these high prices might have 
been reasonable for 1 to 3 months, but this was going on for 
almost a year.
    They also said the Defense Department refused to show that 
they exhausted cheaper fuel sources from Jordan and Turkey. If 
the Army was looking for a cheaper way to do the job, why would 
you tell them not to look for a cheaper way but to sign another 
contract with Altanmia?
    Ambassador Jones. Mr. Representative, I never spoke to the 
Army about this contract; I never asked them to ignore lower 
cost suppliers. If you allow me to continue, I can explain the 
complete story to you.
    Mr. Waxman. Well, the problem is that we only have a 
limited time, so why don't you directly answer the question.
    Ambassador Jones. OK. One of my first duties was to obtain 
more fuel supplies. The first thing I did was travel to Ankara, 
where I met with Turkish authorities in order to clear up 
congestion on the borders which was inhibiting our supply of 
fuel from Turkey----
    Mr. Waxman. Mr. Jones, I'm going to have to interrupt you. 
Let me just ask you the next question. You're a political 
appointee of the Bush administration, why did you exert such 
extreme pressure on civil service contracting officials to get 
them to sign their----
    Ambassador Jones. I never exerted any pressure on any 
contracting officials. I never spoke to KBR about its contract, 
I never spoke with anyone about KBR's contract. If you allow me 
to continue, Congressman----
    Mr. Waxman. Well, you did send them an e-mail.
    Ambassador Jones. That e-mail relates to lifting deliveries 
of fuel for the month of December under a contract which KBR 
had already agreed to several months before with Altanmia. The 
only reason that I would mention a specific company is because 
KBR already had a contract with that company. And we were 
looking to get as much fuel as we could from all sources. We 
had started by checking with Turkey, and we determined after my 
trip that it would be impossible to increase the amount of fuel 
that was coming in through Turkey.
    I don't know anything about Jordan, I'm not privy to any 
such contracts----
    Mr. Waxman. Mr. Ambassador, there is a woman named Mary 
Robertson, she was the contracting officer responsible for this 
contract. She was so troubled by your e-mail that she wrote it 
up in a letter saying, I will not succumb to political 
pressures from the U.S. Embassy to go against my integrity and 
pay a higher price for fuel than necessary. So she clearly felt 
it was pressure. Were you aware of this, or have you become 
aware of this?
    Ambassador Jones. I have heard that she circulated such a 
letter; however, I do not know this person, I have never met 
her, I have never spoken with her, I don't know on what basis 
she made that claim.
    Mr. Waxman. Well, when she made the basis for that claim, 
she was a career contracting officer, and she wanted to get 
Kuwaiti approval of another company to import the fuel. Did you 
make any attempt to persuade the Kuwaitis to approve another 
company?
    Ambassador Jones. I did not intervene in any way in the 
contracting process.
    Mr. Waxman. Well, let me ask you, have you ever met Waleed 
al-Humaidhi, the general manager of Altanmia?
    Ambassador Jones. Not to my recollection, sir.
    Mr. Waxman. Let me make sure that you are saying that you 
did not meet with him, for the record.
    Ambassador Jones. I don't recall meeting with him. It's 
possible he could have been in a meeting that I had with the 
Kuwaiti Minister of Oil on one occasion.
    Mr. Waxman. Well, we were informed that you had met with 
Mr. al-Humaidhi in Kuwait.
    Halliburton, a U.S. company, the U.S. Government was paying 
hundreds of millions of dollars to this company, Altanmia, and 
now Pentagon auditors have concluded they were overcharged. Did 
you ever have any cause to doubt Mr. Waleed al-Humaidhi's 
trustworthiness in his business dealings with the U.S. 
Government or Halliburton.
    Ambassador Jones. No, because I wasn't privy to those 
dealings.
    Mr. Waxman. Have you ever heard of Mr. al-Humaidhi?
    Ambassador Jones. I have heard of him, certainly. And there 
were people in my staff who may have had contact with him, but 
personally, no, I never did, other than the possibility that he 
may have been in presence in one meeting I had with the 
Minister of Oil.
    Mr. Waxman. You had no reason to believe that he was not a 
credible person.
    Ambassador Jones. No, I do not.
    Mr. Waxman. Well, according to internal embassy documents 
obtained by this committee Mr. al-Humaidhi multiple repeated 
allegations to embassy officials at your embassy that 
Halliburton executives demanded kickbacks. He said it was, 
``common knowledge that Halliburton officials were on the take, 
that they solicit bribes openly, that anybody visiting their 
seaside villas at the Kuwaiti Hilton with offers to provide 
services would be asked for a bribe.'' That's what Mr. al-
Humaidhi said. Did you ever investigate these allegations?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.041
    
    Ambassador Jones. The U.S. Embassy is not an investigative 
body, we have no such authority. However, we did refer all of 
those allegations to their proper investigating authority, 
which is the Defense Contract Audit Agency. So we took the 
appropriate steps that we could as U.S. Government officials.
    Mr. Waxman. Let me go back to the first question. Why did 
you, as a political appointee Ambassador in Kuwait, send an e-
mail, from which I take an excerpt, to tell KBR, the 
Halliburton subsidiary, to get off their butts and conclude 
deals with Kuwait, now tell them we want to deal with Altanmia 
within 24 hours, and don't take any excuses. Why single out 
Altanmia if they were----
    Ambassador Jones. Sir, Altanmia was the company that had 
the contract with KBR already to provide the fuel, and we were 
looking for fuel from every source available to us. I had 
already been to Turkey and had determined that there was not 
going to be any capability of increasing fuel supplies from 
Turkey in the short run. We had one source where there was a 
contract that was not being fully utilized, and that was the 
KBR contract with Altanmia. We had already had contact with 
KBR--not me personally, but officials of the Coalition 
Provisional Authority had already been urging KBR to increase 
the amount of fuel that it was purchasing. They had been 
involved in discussions. We had been led to believe those 
discussions were almost complete, and then I received a report 
that they had broken down. And so that's when I--that was the 
context in which I sent that e-mail, but this was lifting under 
a contract that had already been agreed to between KBR and----
    Mr. Waxman. Mary Robertson, a civil service contracting 
officer, said there were other companies that could bid and get 
a lower price than Altanmia. As a result of Altanmia's charges, 
we paid over $100 million, and later, when we finally figured 
out how much we were being overcharged, the U.S. Government 
told KBR we won't deal with you anymore, they put out a 
competitive bid. Altanmia came in and they are charging a third 
of the price to the desk operation for petroleum than what they 
were charging when you and others pushed Halliburton into 
this----
    Ambassador Jones. I did not push Halliburton into anything.
    Mr. Shays. The gentleman's time is up.
    No, Ambassador Jones, I think it's clear that you didn't, 
but----
    Mr. Waxman. Mr. Chairman, rather than reach a conclusion, I 
think this e-mail stands for itself.
    Mr. Shays. No. I purposely didn't interrupt the gentleman 
because he has rightfully wanted to get at this issue, and I 
understand it; and this committee is helping him get the 
documents that he's getting. I just apologize to you, Mr. 
Jones, because I didn't tell you, nor did I know, that you 
would be asked these questions, and they're almost an attack on 
your integrity and you haven't had time to review them. So I 
apologize for that.
    Mr. Waxman. Mr. Chairman----
    Mr. Shays. No, I have the floor.
    I want to explain to you, Mr. Waxman, I understand your 
motivation because this committee, and has not and the full 
Congress has not had the kind of hearings on this that you 
rightfully requested, and I hope to resolve that. I think the 
solution is to have a hearing on this issue where the witness 
is told about it and warned about it and so on.
    I just to want say to you, Ambassador Jones, I have been to 
Iraq seven times, and I would have written the same memo. We're 
in the first 6 months of the rebuilding of Iraq, and we need 
that fuel out there. I would have been the first to do it. And 
I would stand by that statement any day.
    Ambassador Jones. Thank you, Mr. Chairman, I appreciate it.
    Mr. Shays. Now if there were issues about what contracts 
were let out in the future, that's another issue, and I 
understand. And I also agree with you, Mr. Waxman, in that 
Halliburton was overpaid.
    Mr. Waxman. Mr. Chairman, would you yield to me?
    Mr. Shays. Briefly I will yield to you.
    Mr. Waxman. Thank you. You've been a fair chairman to allow 
the questions to be asked.
    I was not taking any liberty in asking something that Mr. 
Jones needed to review because he was the Ambassador, he wrote 
the e-mail; I wanted to ask about that.
    And I don't believe, Mr. Chairman, had you been in this 
position, if the civil service contracting officer said that 
there was a chance to get the oil at a cheaper price, you would 
have said no, go with the company that's going to charge the 
higher price because you've already overpaying them, let's 
continue to overpay them.
    Mr. Shays. Reclaiming my time.
    Mr. Waxman. Thank you for the courtesy of the questions.
    Ambassador Jones. If I could just follow up after that last 
comment, Representative Waxman. I wouldn't either, and I never 
did. Thank you.
    Mr. Shays. And I think the point that I just want to put on 
the record is 6 months into the rebuilding of Iraq and we were 
starting to encounter some huge problems at this time, I just 
would have wanted to resolve each of those problems and then 
sort out the dollar amounts in the future.
    But I would like to say that I was very grateful to you, 
Ambassador Jones, that you came to this hearing to help us 
understand what is also an issue that I know Mr. Waxman cares 
deeply about, and that is, you know, how are we doing? What are 
we doing to ultimately be able to transfer the power and the 
responsibility?
    I was a strong supporter of our seeing an Iraqi government 
take over in June of last year, I thought that was a huge 
moment in time. And one of the things that I have lost in my 7 
visits in Iraq is that the Iraqis are a very proud people; you 
embarrass an Iraqi in front of his wife, you might as well put 
a dagger in his belly and twist it.
    In the case now, what we're trying to get a handle on, and 
it's so important that we do this because ultimately success 
means that the Iraqis have the capability to defend their 
democracy, something, first, they didn't have a democracy 
before, and they are now. But it also means that ultimately our 
role becomes a different role. It means that American solders 
aren't having to patrol streets, it means American soldiers can 
come into the background, and it means that ultimately they 
will be called upon to take on particular actions, and not do 
the everyday responsibilities that they are being asked to do 
today.
    Mr. Waxman. Mr. Chairman, I just want to point out that 
$100 billion could have been used to train Iraqi security 
forces, that was money that could have been used for our 
troops; that was money that was wasted by the overpaying for 
the petroleum. That was the point. I don't think it's 
irrelevant to what we're talking about here, and I just wanted 
to point that out----
    Mr. Shays. I would like the gentleman not to be too 
sensitive here because I'm trying to restrain myself as well.
    The point is that I understand----
    Mr. Waxman. Well, Mr. Chairman, are we going to hear the 
testimony from the witnesses or----
    Mr. Shays. I am reclaiming my time.
    Mr. Waxman. May I inquire----
    Mr. Shays. No, absolutely not.
    Mr. Waxman. No, I don't want to inquire. Go ahead.
    Mr. Shays. Come on, Henry, this is silly. This committee 
will end up with no role if we're not going to do the role that 
we have when we have this hearing, and this is an important 
hearing.
    I would like, if you would, Mr. Rodman, to just tell me 
again so I can get refocused; what I think I'm hearing you say 
is that your on-duty account of over 200,000 Iraqi security 
forces--excuse me, Admiral Sullivan, what I'm hearing from this 
is, as you went through it, that we on paper had this number, 
but we began to realize that they were really people receiving 
in a sense paychecks, but we had no sense of their 
capabilities; is that an accurate statement?
    Admiral Sullivan. I think that's exactly right, sir.
    Mr. Shays. So DOD is attempting to fully appreciate what we 
had, so then we began with a number that we thought were 
trained. When that number drops down, that dotted line number 
drops down, it's a figure, I guess--is that 150,000?
    Admiral Sullivan. It's is actually a drop, let me just 
check.
    Mr. Shays. Is it 132?
    Admiral Sullivan. The figure at the beginning of the green 
line is 90,000. So we rent from roughly 160 in August 2004 to 
90,000 in September 2004. Are you on the red line, sir?
    Mr. Shays. I'm going from the red line down to the----
    Admiral Sullivan. Yes, sir. 132 is the number at the 
beginning--the left hand edge of the blue line.
    Mr. Shays. Now, is that military, police and border patrol?
    Admiral Sullivan. It's all of the Iraqi security forces, 
it's police, border security, Army, National Guard, to the 
extent that they exist, an air force, and maybe--all of the 
Iraqi security forces to include the border, or the Facilities 
Protections Service.
    Mr. Shays. Then explain, did we think at that point that we 
had 132,000 that were actually trained, or did we----
    Admiral Sullivan. Yes, sir. That is the number that had 
been through the coalition training programs for each of the 
various categories that were in existence at the time.
    Mr. Shays. And that's May 2004?
    Admiral Sullivan. Yes, sir, that is May 2004.
    Mr. Shays. And so then we increased that number, then it 
started to level off, and then I'm seeing another drop. Explain 
that next drop. And that number, if you could, that peek of the 
train represents--what was that number?
    Admiral Sullivan. About 160,000.
    Mr. Shays. And so at 160,000 you dropped it down. Explain 
that now.
    Admiral Sullivan. We dropped it down to about 90,000, and 
we did two things at that point. First of all, we eliminated 
the Facilities Protection Service, which was not a part of the 
Iraqi security forces----
    Mr. Shays. Explain the Facilities Protection Service.
    Admiral Sullivan. These are like night watchman, these are 
people who were hired by the various ministries to stand guard 
over their----
    Mr. Shays. And they were hired by the Iraqi government?
    Admiral Sullivan. Yes, sir. And in many cases, each 
ministry had their own pool of these types of people. I equate 
them to, if you go to Pentagon City Mall and you see the guards 
walking around the mall, the Arlington County Police doesn't 
count them as part of their county security forces.
    The facility protection folks----
    Mr. Shays. Does that account for the whole drop, or were 
there some other reasons for that drop?
    Admiral Sullivan. The second reason, and probably the most 
significant reason from the standpoint of measuring our 
progress, is that unless the people that were trained were also 
fully equipped for whatever role they were playing, we did not 
count them. So, for example, a soldier comes out but we don't 
have a weapon to give him, we don't count him on that green 
line; or if he doesn't have a radio that he needs to perform 
the function.
    Mr. Shays. So if he's trained but minus equipment, you're 
not going to call him trained and equipped?
    Admiral Sullivan. Yes, sir. That is the standard we're 
using today, trained and equipped by the various programs that 
are in existence.
    Mr. Shays. And so under that first drop of trained, if we 
had then done trained and equipped, it would have clearly been 
well below that.
    Admiral Sullivan. Yes, sir. Because at that point in time, 
we were pumping out the graduates of the various courses faster 
than the equipment was arriving, so they weren't all equipped.
    Mr. Shays. In one of the contacts that I had with General 
Petraeus, and then interacting with the Iraqis, what I was 
being told was that Iraqis at one point were fighting next to 
our own soldiers, but they did not feel that they had the same 
equipment that our own forces had. So you could understand 
their reluctance sometimes to engage in battles which were 
sometimes--the implication was that they did not have the 
courage and so on. They might not have had the experience, but 
it was--as we began to understand this more in terms of 
equipment and, in some cases, training, it became very 
understandable.
    And so, should I have some confidence that this trained and 
equipped number we are at right now--at what number now?
    Admiral Sullivan. We are 142,000. That is both ministries. 
That is that chart that you have in front of you there, the 
total trained and equipped.
    Mr. Shays. So what you are doing now to help divide this up 
for us is that you are telling us police and highway patrol, 
55,000, the--what is the other?
    Admiral Sullivan. Well, there are a number of forces that 
have been established under the ministry of interior in 
addition to your basic police and your highway patrol. They 
include something called the civil intervention force, an 
emergency response unit, the division of border enforcement--
that is your border police. There are special police commando 
battalions, then there is dignitary protection services.
    So all of those fall under the other ministry of the 
interior forces.
    Mr. Shays. Are you prepared to tell us which groups here 
are the better trained? I mean, is the army better trained than 
the police?
    I mean, I realize their missions are different, but can you 
tell us where you have a little bit more confidence?
    Admiral Sullivan. What I would do and the way I would 
answer that, sir, is first of all, like you said, it is 
comparing apples and oranges, because their missions are very 
different. So I wouldn't want to say----
    Mr. Shays. So we won't compare then. But I guess what I 
want to understand is, do we have more confidence in the 
training of the army than we do with the police, or do we have 
more confidence in the vetting with the army than we do with 
the police? Can you speak to that issue?
    Admiral Sullivan. I would have to maybe take that one for 
the record. But my off-the-cuff response is, I think we have 
pretty equal confidence in both forces as they come through the 
training programs that have been set up.
    Mr. Shays. OK.
    Mr. Christoff, would you respond to what you are seeing 
here? How do you react to this when you see it? And tell me how 
you react to it.
    Mr. Christoff. First of all, I have found this chart very 
helpful, because we have been, in some sense, struggling to try 
to understand definitions, trying to understand what is trained 
and equipped. There were prior terms that were used--``full 
operational capability,'' ``limited operational capability.''
    The one question I am still unclear about is that in 
trained and equipped, are all of those forces fully equipped in 
terms of having the body armor, the communications equipment, 
the vehicles and the weapons that they need?
    The reason why I am still unclear about that is because 
September 2004 is the last time that there was really any 
published information that went into the different categories 
about the extent to which these different forces had all of the 
equipment that they needed.
    Mr. Shays. OK. And I do want to say parenthetically, just 
reacting to my esteemed ranking member, I am eager to see us 
spend money on training and equipment for Iraqis--so that they 
do have the capability. That is one of my lessons learned from 
my visits to Iraq, that they, one, need the training; and two, 
they need the equipment.
    Now, how we spend that money and so on, you know, that is 
an obvious issue of whether we are spending it in the best ways 
possible. But I want to say, this has helped me for first time 
kind of sort out exactly, Mr. Christoff, your challenge.
    So your point to me, though, is a better definition of 
equipment would be helpful?
    Mr. Christoff. To do the type of reporting that I last saw 
in September 2004, in which you would break out the different 
units and the percentage of weapons that they had available, 
etc.
    Mr. Shays. Admiral.
    Admiral Sullivan. OK. I think I understand where Mr. 
Christoff is going here, and that is really the next phase of 
this effort. That is to develop the metrics for each of the 
units, not only some measure what was just described in terms 
of equipment, but also a qualitative assessment of their 
ability to conduct their missions.
    In our Army, it is called the ``unit status report,'' and 
it takes into consideration a large number of things. At the 
individual level, it takes into consideration, has the 
individual been through the training that is required for him 
to perform the job that he is assigned?
    Does he have the equipment that he needs to perform that 
job? Has he--at the unit level, that is, is that equipment, 
whether it be vehicles, weapons, aircraft or whatever, is it--
has it met a certain minimum standard of operational readiness? 
If they are required to have 1,000 sets of body armor for a 
particular unit, does that unit have 1,000 sets of body armor? 
Has the unit gone through unit training so that they know how 
to operate together?
    So that is a separate and distinct category from individual 
training, where you teach the individual how to operate his own 
weapon, now you teach him how to operate as a unit. So all of 
that goes into a unit status report which is the means by which 
we in our own military measure our own unit readiness.
    There is a little bit of subjectivity in it, but most of it 
is pretty well laid out in the governing directives, as to what 
you have to rate yourself. If, for example, you have 100 trucks 
and only 60 of them are operating up to standard, then you have 
to drop your readiness rating in that particular category. And 
that results in an overall readiness rating.
    The subjectivity part includes, has this unit been in 
combat? Has it been tested in combat with the enemy; and if so, 
how did it do? Another unit perhaps has not engaged with the 
enemy, so there is more uncertainty as to their readiness. So 
that is the next step in this process in how do we begin 
assessing the Iraqi units in a similar way that we assess our 
own military forces across all of the services.
    Mr. Shays. One of the things I am struck by is that you can 
train them extensively and have confidence, but if they have 
not engaged in encounters with the enemy, you really can't have 
the kind of assessment that----
    Admiral Sullivan. Even in our own military, not every unit 
gets engaged with the enemy. But we still are required to 
assess our unit readiness. So that is the subjective part.
    Mr. Shays. Right.
    Admiral Sullivan. I mean, a commander who has seen a 
particular battalion in the fight, and they have acquitted 
themselves well, is going to have a higher personal assessment 
of what that unit's readiness is than he will of a unit that 
hasn't been tested.
    Mr. Shays. I just conferred with Mr. Kucinich who--really 
his time is now in use, so he has agreed that I can just 
continue here a bit. That is the advantage when we have fewer 
members, we can get into this a little bit more.
    Can you explain to me, and then what I will tell you, 
Ambassador Jones, I would be interested, given your experience 
being in Iraq, how you react to all of this, and if you can add 
a little color and tone to this.
    But let me first ask you, Admiral, how about the police? 
The same readiness standards?
    Admiral Sullivan. They are developing the same kind of 
standards. I probably am better off deferring to INL to answer 
that question, because there are different categories and 
different standards that apply to the police services than 
there are to military forces.
    Mr. Todd. Thank you, Mr. Chairman. Basically, I&L is a 
subordinate to the command of General Petraeus and Munson in 
general in Iraq, as well as we run the Jordan facility. We 
develop the curriculum in Jordan for training we do in Jordan 
as well as in Iraq.
    We have been working on the readiness of our police force, 
as you know, over the last 18 months. A big part of the 
readiness, to be quite frank with you, is the FTO program. Our 
training is broken down into two parts. One part is the 8-week 
training course, and then the next part is the on-the-job 
training that takes place supposedly over the next 6 to 8 
months.
    Over the last 18 months, because of the security situation, 
General Petraeus with, of course, General Casey's blessings has 
morphed the FTO program into being less rather than more. So 
the readiness is in a constant state of play. It is getting 
better; the FTO program is improving.
    We are improving basically the IPLOs, which are the 
advisors that go into the field with the actual police 
officers. We have right now over 300 outside of Baghdad, we 
have approximately 200 in Baghdad; and we think the force is 
getting better.
    Mr. Shays. Ambassador, do you care to add any comment, just 
in general about the questions that I've asked?
    Ambassador Jones. No. I am glad you mentioned the police, 
because the comment that I have been wanting to make while 
listening to this is that the problem is that the equipment and 
training standards are rightfully different for the police than 
for the armed forces. Even within the armed forces, different 
units get different equipment and training, of course.
    But particularly on the police side, what we saw in April, 
there were a lot of problems in the south at that time with the 
police coming under attack and leaving their police stations, 
leaving their posts. And when we went back and looked at the 
situation, it was exactly what you were alluding to, they were 
basically outgunned by their opponents.
    At that time, at least, we were training and equipping the 
police for police functions. And they were equipped as you 
would expect police to normally be equipped. But, in fact, they 
were attacked by forces that were equipped more like an army. 
And it is very hard for light police forces to stand up to an 
army.
    I mean, for example, they were coming under mortar and RPG 
fire in their police stations. And, you know, we put it all 
into perspective at that point, and realized that, well, yes, 
these people cut and run, but it is probably better that they 
did so to preserve their lives so they can be used at some 
point in the future.
    And it did, I think, cause us to reassess how we were 
training and equipping people. We realized that we had to plus-
up the equipment that we were giving to the police, because the 
problem is, they couldn't choose who their opponents were. 
Their opponents chose the fight. If they were only equipped as 
sort of a normal police force, they would have a very difficult 
time standing up to some of the opponents they were going to 
face on the ground in Iraq.
    So we had to upgrade that. I think that process has been 
ongoing since that time.
    Mr. Rodman. Mr. Chairman, I just wanted to broaden the 
point that Ambassador Jones just made. The chart on historical 
perspective shows us doing a number of things. It shows us 
learning some lessons from experience, it shows us adapting to 
changes and circumstances.
    At the very beginning, when we got there, there was a 
premium on numbers. The Iraqi army and police had evaporated. 
So there was a premium on getting people out there, 
establishing a governmental presence--police on the beat, 
people protecting facilities--and we knew they were not trained 
to do heavy duty functions, but we needed to establish an Iraqi 
presence.
    Mr. Shays. I understand, because I was asking you to do 
that, and so were other Members of Congress. So we were all 
playing a role in this. I am not saying that as a compliment, I 
am saying in some ways that we were asking you to do something 
that was very difficult.
    Mr. Rodman. Well, that is correct. But then in April 2004, 
you remember, there was a surge in violence and these people 
were tested, police and army units, and we realized that a lot 
of them did not meet the test, so we gave ourselves a more 
rigorous measure of who really was trained to do a mission.
    And the second dotted line--again as Admiral Sullivan has 
explained, after General Petraeus arrived, we dropped the 
facilities protection people out because that was a lesser--not 
as important as the police and combat function. And, in 
addition, we started looking toward the Iraqi--the Iraqis 
themselves taking on greater responsibility. And so we again 
gave ourselves a harder metric of people who were trained and 
equipped up to a higher standard, such that we could begin to 
look toward an Iraqi force that could take on real 
responsibility.
    So that is really the story that this chart tells.
    Mr. Shays. I am not going to spend a lot more time 
questioning this panel when Mr. Kucinich is done. He may then 
have a few more questions.
    But the question I would like you to think about is what 
are those numbers ultimately going to be in each area, where we 
have a comfort level that they should have at least the 
opportunity, a fair shot, to be able to realize ``success.''
    So, Mr. Kucinich, thank you for your patience.
    Mr. Kucinich. Mr. Chairman, thank you. Thank you for 
holding this hearing and providing the opportunity for the 
Congress to ask some necessary questions.
    Mr. Rodman began by saying that the strategy is political 
as much as it is military. I would respectfully suggest to the 
witnesses that the report that you just brought to this 
Congress with this slide show, as you call it, or side show as 
I would call it, is unfortunately political.
    Let me be specific, and the people in the media who are 
seated in the corner might want to follow this discussion. If 
you look from the peak of involvement, 206,000 troops, and you 
go to 90,000, and you see--what you see is a drop-off of about 
53 percent in one-half year. And in the latest--of the latest 
figures, GAO says the number of Iraqi police is unreliable.
    Now, let us take this chart and the GAO report together and 
add to it the second chart that the witnesses provided about 
the current status of trained and equipped Iraqi security 
forces. You start to develop a totally different picture.
    First of all, the GAO says that the numbers are unreliable 
with respect to both the data from the ministry of interior 
forces and the ministry of defense forces. I take it they are 
talking about all of the numbers.
    Second, the GAO points out there is no consistent, accurate 
reporting, which frankly makes these numbers fiction, 
especially the ones of the ministry of interior forces.
    Third, the GAO says, and this--one of the witnesses 
admitted, that with respect to the ministry of interior forces, 
the unauthorized absences of personnel are included in these 
numbers, which is a polite way of saying that these books are 
cooked.
    And the fourth point is, the GAO says that the Department 
of Defense and State no longer report on the extent to which 
Iraqi security forces are equipped with their required weapons, 
vehicles, communications equipment and body armor. So much for 
security forces.
    On the fifth point, GAO has pointed out that there is no 
means in place to even measure the success of the Iraqi 
security forces.
    You should be embarrassed to be here. I mean, this is like 
fantasyland. This is as fictive as the weapons of mass 
destruction are.
    I mean, I am embarrassed for you that you would come to a 
congressional committee with this kind of a phony report. Just 
look at the numbers. And I sat down there so I could take a 
careful look at the chart. Not reliable data. That is the best 
that can be said of what you are presenting to this committee, 
the best.
    Now, speaking of not reliable data, Ambassador Jones, I 
just want to reiterate what Mr. Waxman said about the $100 
million that was overpaid, that could have been used for 
training the Iraqi security forces or for equipping our troops.
    But let me for a moment go into another part of your 
illustrious background, which is quite impressive. You served 
from November 17, 2003, until June 28, 2004, concurrently, as 
the chief policy officer and deputy administrator of the 
Coalition Provisional Authority in Iraq. That is from your 
biography here.
    It also says something that I think is very interesting, 
that you have a proficiency in a number of languages, including 
Arabic; is that correct? Well, then would you be so kind as to 
enlighten me as to how in the world the Coalition Provisional 
Authority, during the time that you were one of the officials, 
lost track of $90 billion?
    It certainly wasn't because, according to an audit that was 
done that this committee is familiar with, they lost track of 
how the Iraqi Government was spending $90 billion, that the 
Coalition Provisional Authority had the responsibility for 
oversight. Hello?
    Do you want to give some accounting here, to be the first 
person in the administration to offer a guess as to where the 
money is?
    Mr. Shays. Will the gentleman just yield a second? Do you 
want them to first answer your first part and you will have 
time to ask this.
    Mr. Kucinich. I am asking the Ambassador a question. We can 
get back to the other witnesses so they can engage.
    Mr. Shays. I just wanted to know.
    Mr. Kucinich. I did not ask, Mr. Chairman, a specific 
question. I made a statement. I want an answer from Ambassador 
Jones.
    Thank you, Mr. Chairman.
    Ambassador Jones. Representative Kucinich, I haven't seen 
the report that you are talking about. So you have me at a 
disadvantage. But I believe that the figure you mentioned, $90 
billion, could not possibly be accurate.
    Mr. Kucinich. Excuse me. I misspoke. It was $9 billion. I 
misspoke.
    Ambassador Jones. Whatever the figure is----
    Mr. Kucinich. It was $9 billion. Thank you.
    Ambassador Jones. I see.
    Mr. Kucinich. I am glad you see. It was $9 billion.
    Ambassador Jones. I do not know what it was. I haven't seen 
the report. I just knew that $90 billion could not possibly be 
right.
    Mr. Kucinich. I just corrected the record.
    Ambassador Jones. You have me at a disadvantage. I haven't 
read the report. But I can assure you that all of those who 
worked at the Coalition Provisional Authority felt that they 
had a fiduciary interest on the behalf of the Iraqi people to 
use Iraqi funds in the best manner possible, for those Iraqi 
funds that we had under our jurisdiction.
    And I can assure you that any American funds were also 
treated with the same high standards. Whether or not the 
standards----
    Mr. Kucinich. Let me cite the record. On January 30, 2005, 
the same day as national elections were held in Iraq, the 
Special Inspector General of the Coalition Provisional 
Authority noted in a report that the Coalition Provisional 
Authority could not account for $9 billion in funds transferred 
from the CPA to the interim Iraqi Government.
    Now, Ambassador Jones, you have not read that report?
    Ambassador Jones. It hasn't been provided to me, no.
    Mr. Kucinich. Do you have any interest in the report?
    Ambassador Jones. It doesn't--it does not relate to my 
current responsibilities.
    Mr. Kucinich. Mr. Rodman, have you read the report?
    Mr. Rodman. I have not read it. I have seen that figure 
published.
    Mr. Kucinich. Mr. Rodman and Ambassador Jones, who is 
investigating the IG's findings that $9 billion is missing in 
Iraq? Mr. Rodman.
    Mr. Rodman. I can get you that answer for the record, 
Congressman.
    Mr. Kucinich. Ambassador Jones.
    Ambassador Jones. I think Assistant Secretary Rodman has 
given a good answer.
    Mr. Kucinich. The inspector general of the Coalition 
Provisional Authority--Mr. Chairman, I sent you a letter on it 
asking for a hearing on it. I did not know that we were going 
to have two gentlemen who, you would assume, would have some 
interest in the fact that $9 billion, which went--which the 
Coalition Provisional Authority had responsibility for 
accounting for, in funds that were transferred from the CPA to 
the interim Iraqi Government, that they can't give any answer 
at all.
    No clue? I mean, is this possible, that they could have 
been in a position of responsibility, that a report has been 
issued and you haven't read that report about $9 billion 
missing? I find that incredible.
    You want to give it a try again, Ambassador? Are you 
really--you took an oath here.
    Ambassador Jones. I am waiting for you to finish speaking, 
sir.
    Mr. Kucinich. That is kind of you, but I just asked you a 
question.
    Ambassador Jones. I told you I have not read the report. I 
have not read the report because I was not in my current 
assignment when it was released, and I have other duties. I do 
not spend my time going over an inspector general's report. An 
inspector general is an investigation. That is what he is 
trying to find out.
    Now, because I haven't read the report, I cannot answer you 
to the extent that I would like.
    Mr. Kucinich. You have no knowledge of the inspector 
general's report?
    Ambassador Jones. I saw the press reports. But as I said, 
it is not part of my current duties from----
    Mr. Kucinich. Did anyone from the IG's office contact you 
to------
    Ambassador Jones. No. No. It was not my responsibility when 
I was in Iraq, sir.
    Mr. Kucinich. You were the chief policy officer and deputy 
administrator of the Coalition Provisional Authority?
    Ambassador Jones. There were two deputies to Ambassador 
Bremer. There was an operational deputy. That is where the 
money was.
    Mr. Kucinich. What was his name?
    Ambassador Jones. I was the policy director.
    Mr. Kucinich. Who was the operational deputy where the 
money was?
    Ambassador Jones. There were three during my tenure. The 
names are in the public record.
    Mr. Kucinich. You never heard any discussion about them 
losing control of the money?
    Ambassador Jones. From what you have described, it is very 
difficult for me to understand which period you are even 
talking about, sir.
    You said transferred by CPA to the IIG. The IIG did not 
exist until June 28th, which is when CPA disappeared, and we 
all left Iraq.
    Mr. Kucinich. This was during the time that CPA was in 
charge, and it was during the time that you, sir, were a member 
of that organization. That----
    Ambassador Jones. You are speaking about Iraqi funds.
    Mr. Kucinich. Listen, are you saying those funds aren't as 
interesting to this committee?
    Ambassador Jones. No, I am trying to clarify.
    Mr. Kucinich. That is exactly what I am saying.
    Ambassador Jones. I am not aware that we transferred any 
money to the control of Iraqi officials during CPA's tenure.
    Mr. Kucinich. Well, the inspector general seems to think 
that you had control of $9 billion that you did transfer, and 
now you are saying----
    Ambassador Jones. CPA had fiduciary responsibility to 
administer the development fund for Iraq, DFI. We used those 
moneys for the benefit of the Iraqi people in a number of ways.
    And CPA kept very detailed records, and that is why I am 
perplexed to hear your description of the report. I would have 
to read the report to respond effectively. And that is what 
Assistant Secretary Rodman has suggested we will do, and we 
will do so.
    Mr. Kucinich. Mr. Chairman, I have a copy of the audit 
report here, the oversight of funds provided to Iraqi 
ministries, to the national budget process, from the Office of 
the Special Inspector General for Iraq Reconstruction, dated on 
the date that I said.
    And I have an executive summary here which points out the 
scope of the audit, points out that,

    The Coalition Provisional Authority provided less than 
adequate controls for approximately $8.8 billion in DFI funds 
provided to Iraqi ministries during the national budget 
process; did not establish or implement sufficient managerial, 
financial or contractual controls to ensure the funds were 
being used in a transparent manner. Consequently, there is no 
assurance that the funds were used for the purposes mandated by 
Resolution 14-83.
    With respect to managerial controls, they did not implement 
adequate managerial controls over DFI funds provided to Iraqi 
ministries to the national budget process; specifically, 
authorities and responsibilities over DFI funds were not 
clearly assigned, and CPA regulations, orders and memoranda did 
not contain clear guidance regarding the procedures and 
controls for disbursing funds in a national budget.
    With respect to financial controls, they did not implement 
adequate financial controls to ensure DFI funds were properly 
used. With respect to contract controls, the CPA did not 
adequately control the DFI contracting actions.
    While acknowledging the extraordinarily challenging threat 
environment that confronted the CPA throughout its existence, 
we believe the CPA's management of Iraq's national budget 
process and oversight of Iraqi funds was burdened by severe 
inefficiencies and poor management.

    And then it goes on and on and on.
    Now, I want to include this in the record, if I may, Mr. 
Chairman, and once again express my astonishment that someone 
who was in any kind of a policy role with respect to the CPA 
wouldn't be literate about the content of this record, and 
would tell this committee that they just do not know anything 
about it.
    Mr. Shays. Well, if the gentleman would yield. Like my time 
was up, his time is up. And I would be happy to let him proceed 
on this.
    But I just have to say that there is only one witness who 
would have a tangential responsibility, but his issue was 
policy, not operations of the budget. And the one thing I--
someone said, if you are a workaholic, there is one place to go 
to; that is Iraq.
    I don't have any doubt at all that Ambassador Jones, spent 
every waking hour in Iraq working. But he was doing the areas 
and responsibilities that he was tasked. If there is a fault 
here, then put it on my shoulders for not responding to your 
January 31st letter, in general. But this is an issue to which 
I have tasked my staff to decide how we are going to allocate 
our hearings.
    This is an important issue. I don't want to discount it. I 
think it is very unfair to Ambassador Jones to put the weight 
of this on him. It should really be more directed at me. And I 
would just like to say that I appreciate the gentleman's 
patience.
    Could I ask if there is any point in which the Democratic 
side of the aisle is going to deal with the hearing that we are 
undertaking, or is it going to be about an issue that is not 
part of the hearing? That is what I am wrestling with.
    Mr. Kucinich. Well, Mr. Chairman, then let me be of 
assistance to you in that regard.
    This panel is trying to make a case about the effective 
transition toward the handling of the security of Iraq by the 
Iraqi security forces. I pointed out that by the very 
information that they have presented, they have not made their 
case. In fact, they have made a good case that they failed.
    Furthermore, the connection is this, Mr. Chairman: We have 
to vote this week on $82 billion--something in the area of 
that--for a supplemental appropriation for Iraq. And it is 
relevant if the people who are coming before us, who are tasked 
with responsibility in that area, cannot give us a straight 
story on anything--on what happened to $9 billion, on what the 
status is of the Iraqi security force.
    I mean, as far as I am concerned--and you did the right 
thing in calling this hearing, and I am grateful for it--but 
this is central to why we are here.
    Mr. Shays. Well, the problem is that I will be discouraged 
from having a hearing on a topic, because I do not know if one 
side of the aisle or the other is going to address the issue.
    Ambassador Jones was scheduled to go to Iraq. He is here 
today to answer questions about the whole training issue to 
which he has tremendous expertise and knowledge. And I just 
want to say to you that you made points in the beginning that I 
think, if they were true and you feel they are true, they 
should have the opportunity to respond to them.
    And that is, the essence was, your point was that these 
numbers are somehow inaccurate and bogus. And what I felt from 
this hearing is----
    Mr. Kucinich. The GAO said that.
    Mr. Shays. No, what they said was they are numbers, and I 
think their numbers were unclear, and what they have done is 
come in to try to help us understand. And I think Mr. 
Christoff's response was, now I am able to put into perspective 
these various issues.
    For me, the reason why I was eager to have this hearing was 
to begin to understand how we are doing, and what it is going 
to take to have success. I do not even feel--and correct me if 
I'm wrong, gentlemen of the panel; I do not feel like you are 
making a great claim that we have success here.
    You are trying to have us understand, as this war 
proceeded, how you have tried to sort out what it will take to 
have success, and to give us accurate numbers about what you 
think that will be. That is what I was getting from this 
hearing.
    But I am not, again, discounting the issue of concern that 
my colleague has. I just didn't give him the panel and the 
people who have the expertise to answer his question. And the 
reason why I haven't made a bigger deal out of this issue is, I 
think you have a legitimate right to be frustrated that we in 
Congress haven't come to address the money issue better.
    But this is an extraordinarily important hearing about how 
well trained the police are, how well trained the border patrol 
are, how well trained the army is, what are the numbers that we 
can get a handle on. We are starting to get them for the first 
time since I have been in Congress. I really appreciate it.
    The gentleman has the floor to proceed to this question. 
But I hope they can--this panel can address your first point.
    Mr. Kucinich. Well, I would like each of the witnesses to 
answer the question, yes or no, whether you believe that this 
administration underestimated the levels and abilities of 
insurgents in Iraq.
    Mr. Christoff.
    Mr. Christoff. I do not think I have enough information to 
address that.
    Mr. Kucinich. I accept that.
    Mr. Rodman. The situation changed. I think the regime had a 
preexisting plan to resort to guerilla warfare when the regime 
collapsed, and they gradually put this plan into effect. And we 
have adapted to the changes in circumstances as we have 
encountered them.
    Mr. Kucinich. So you are saying that this is Saddam 
Hussein's doing, this insurgency?
    Mr. Rodman. We know for a fact that this was a plan set up 
by the Iraqi security services to resort to this kind of 
warfare after the regime.
    Mr. Kucinich. Is Saddam directing this from his cell?
    Mr. Rodman. No. But the direction of the insurgency is 
hard-core, former regime elements.
    Mr. Kucinich. This plan was in motion--and do you know for 
a fact? Have you seen such a plan?
    Mr. Rodman. We have information that is a specific plan by 
the old regime, and they gradually regrouped and started to put 
it into effect, and we have adapted to that.
    Mr. Kucinich. So is your answer yes or no that they 
underestimated the level in abilities of the insurgents in 
Iraq?
    Mr. Rodman. We did not anticipate the kind of insurgency as 
it evolved; and we have adapted to it, and we are responding to 
it to defeat it.
    Mr. Kucinich. Thank you.
    Admiral Sullivan. Before I address that question, I would 
like to address the first comment.
    Mr. Kucinich. Why not address my question? Answer my 
question, if you would, please; then I would like to hear from 
you about anything else.
    Admiral Sullivan. I would be happy to respond, sir. I think 
Mr. Rodman said it exactly right. We did not anticipate the 
level of insurgency that we saw, especially as it built through 
the year 2004.
    Mr. Kucinich. OK. You had something else you wanted to say, 
Admiral.
    Admiral Sullivan. I do.
    First of all, I am not embarrassed to be here in front of 
this committee, and I stand by the numbers that are on that 
chart that I showed you. If you will allow me to explain why I 
say that, I will.
    These numbers are verified every week by General Petraeus 
and by General Casey. We trust their judgment. The numbers on 
the ministry of defense forces absolutely represent those 
personnel that have been trained and equipped through our 
training system.
    The number under the ministry of interior forces likewise 
represents the numbers of personnel that have been trained and 
equipped through our system.
    And I would submit to you, it would be more ``cooking the 
books'' if we took this asterisk off the chart and tried to 
represent that all 81,889 of these people were on duty. 
Instead, we have tried to be up front with you and admit that 
there are gaps in our knowledge as to who is on duty on a given 
day.
    Thank you.
    Mr. Kucinich. May I ask you, Admiral, when you say 
unauthorized-absence personnel are included in these numbers 
under ministry of interior forces, do you want to explain what 
you mean by that?
    Admiral Sullivan. Yes, sir. As I explained at the 
beginning, the accounting for the ministry of interior 
personnel is less precise than it is for the ministry of 
defense. They do shift work. At any given time, whatever kind 
of shifts they are on, so many of those people are not on duty, 
only the personnel whose shift is on duty are on duty.
    Second, they do not have the--because they live at home, 
they do not have the same kind of requirements for a morning 
muster that the military forces do. So there is less certainty. 
If patrolman so-and-so goes home to see his family for the 
weekend and doesn't come back, they may not know that right 
away. So it is just a less precise accounting, and it is the 
nature of the business that they are in.
    Mr. Kucinich. So there would tend to be an agreement with 
the GAO, then, on your part?
    Admiral Sullivan. The numbers that I presented to you 
represent the numbers of personnel that have been trained and 
equipped. It doesn't say they are all standing the beat right 
now.
    Mr. Kucinich. OK.
    To Ambassador Jones, do you believe that this 
administration underestimated the level and abilities of 
insurgents in Iraq?
    Ambassador Jones. I think that the answers that the 
previous two witnesses have given are accurate.
    I think that in the beginning--and you must recall that 
Saddam Hussein was at large for 8 months after the liberation; 
that is a long time to try and organize an insurgency, and I do 
believe that he played a leading role in rallying his forces. 
Obviously, since his capture, he hasn't been able to do that; 
but in the 8 months prior to that, he was very active doing so, 
and I think a plan that he set in motion continues.
    But, as Admiral Sullivan mentioned, we have also seen a 
growth in the insurgency. And so I think at any given time, we 
probably had a relatively good handle on the size of the 
insurgency, but the insurgency has been growing over time. It 
goes down sometimes, but it also goes up.
    I don't think that there have been wildly inaccurate 
estimates of the insurgency at any given time, but rather that 
the nature and the size of the insurgency has evolved, and we 
have been trying to track that.
    Mr. Kucinich. So are you saying that this insurgency does 
or doesn't have something to do with Saddam Hussein?
    Ambassador Jones. No. I think it definitely does; certainly 
its origins do.
    Mr. Kucinich. Mr. Todd.
    Mr. Todd. I think prior to the war the size of the 
insurgency was not contemplated at this level.
    Mr. Kucinich. Well, it is also possible that the war 
created a level of insurgency, is it not, Mr. Todd?
    Mr. Todd. That is above my pay grade, sir.
    Mr. Kucinich. OK.
    Mr. Rodman.
    Mr. Rodman. I don't believe that. I believe this was the 
hard core of the old regime, the diehards who had a plan in 
advance to organize themselves to do this kind of resistance.
    Mr. Kucinich. Why is the hard core of the old regime 
growing then?
    Mr. Rodman. It is hard to estimate the numbers. It may be 
that the political process will start to diminish the numbers 
of insurgents, because I think a lot of the Sunni leadership is 
opting now to join the political process rather than oppose it.
    Mr. Kucinich. Are you going to--may I ask you, Mr. Rodman, 
is the State Department going to utilize the experiences and 
support of the U.N. and its peacekeeping operations to support 
those forces?
    Mr. Rodman. Well, first of all, I represent the Defense 
Department. But, my understanding is, we have been trying for a 
while to bring the United Nations into the process. I mean, 
the--the multinational force, as it exists now, has a U.N. 
mandate.
    There are several U.N. resolutions since the war that have 
given, as I say, a mandate to the multinational force. The main 
role the U.N. has played most recently has been in helping the 
political process in its earlier stages. But I think now--I am 
not sure the United Nation's involvement would induce a lot of 
other countries to join.
    Mr. Kucinich. What would Secretary Rumsfeld's position be 
then? Could you speak for him on that?
    Mr. Rodman. We are very happy to have a coalition; in fact, 
we have 20 to 30 countries in the coalition.
    Mr. Kucinich. Has he considered turning operations over to 
the U.N. at any point?
    Mr. Rodman. I do not think the United Nations would be 
willing to undertake this mission, so I think it is an academic 
question.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Let me, before moving on to the next panel, understand. Do 
you think it is possible, Admiral, that we will have another 
drop as we redefine--or when I say ``redefine,'' when we 
qualify what we really need?
    I mean, we went from training to trained and equipped. Do 
you think that we are looking at kind of the last drop, and we 
are pretty comfortable with this base to work on?
    Admiral Sullivan. In terms of the trained and equipped, we 
will not see a drop. I mean, that will continue to climb as we 
execute.
    Mr. Shays. But will there be some other----
    Admiral Sullivan. I take your point. I think if we are able 
to refine this unit status report metric that I described----
    Mr. Shays. Which gets us on the sense of readiness?
    Admiral Sullivan. Yes, sir; in other words, a way to look 
at a particular Iraqi unit, for example, and assess whether 
they are fully combat ready, marginally combat ready, not 
combat ready, whatever kind of metrics we apply to it. What you 
may see is a new set of metrics that would be available to 
present to you, which describes how we assess the overall 
readiness of the Iraqi army.
    We are not ready to do that yet because we are still 
developing that system.
    Mr. Shays. One, it is important that you do develop that 
system. We will be eager to have a sense of it. And I think Mr. 
Christoff will agree. I am seeing him nod his head.
    The other area that I am trying to--the subcommittee is 
wrestling with, Ambassador, is, as you come here to speak 
about--the reason why you were here to speak about the police, 
we know the police have an extraordinarily difficult time 
responding to attacks from people who are armed like they were 
in the military.
    But is it feasible that we would be making the police 
capable to fight military? I am wrestling with what you make 
police and what kind of capabilities you give police.
    Ambassador Jones. No, in fact, we are developing special 
police units which would be much more of a paramilitary force 
than a traditional police force.
    And I think Admiral Sullivan may have something to add on 
that, as well as Mr. Todd.
    Mr. Todd. Admiral Sullivan can speak to this better than I. 
But DOD has a special mechanized brigade that is being created 
in Iraq that will help with fairly high-intensity, mid-
intensity conflict situations.
    We also have a special commando unit.
    Mr. Shays. That is within the police?
    Mr. Todd. Yes. In terms of the civilian side, we think that 
civilian police are civilian police and most of the guys are 
not being trained in paramilitary type things.
    What we are doing, though, is morphing the training in both 
Baghdad and in Jordan to teach them how to deal with the 
insurgency, and how to deal with their survival. We teach them 
everything from combat survival skills to more hand-to-hand 
combat.
    Our gun of choice is a 9 millimeter. We are going to be 
teaching them in Jordan, as well as Iraq, on the AKs so they 
will be better prepared.
    Mr. Shays. In my experience in Iraq, I have encountered so 
many, because I have gone outside of the umbrella of the 
military and stayed in Basra and Al Kut and other places, and 
when I would speak with everyday Iraqis, they were eager to 
take on the responsibilities.
    I mean, I had a number who--parents or brothers, uncles, 
fathers--were in the military, concerned that they had lost 
their jobs and saying, You know, these are good people; my dad 
is a good man. Or some in the police force and so on.
    What I would want to be part of this record is, I am in awe 
of the number of Iraqis who are willing to stand in line and in 
the course of standing in line, lose their lives. I am in awe 
of the number of Iraqis who would come home only to be 
threatened that they were helping this new Iraqi Government, 
and their lives were being threatened and they still persist.
    And then I am also understanding that there are some who 
simply had to say, they could not continue if there was no way 
to protect them, if their families were being threatened. I 
mean, the logical thing would be--and I would be one of them if 
I could not protect my family. If I was still participating 
with this new government, and there was no way to protect them, 
I am not going to have them have to suffer and risk their lives 
for it.
    But what I think is happening, and what I saw when I was in 
Iraq during the voting, was the incredible number of Iraqis who 
came to vote, who dressed up, who brought their children, and 
were so proud that 165,000 Iraqis had actually taken the 
responsibility of conducting this election. And frankly they 
did it better that we do in the United States. I was in awe of 
it.
    There was one point where I was watching these Iraqis vote, 
and I went up to the person who had taken the ballots and put 
them on top of each of the three ballot boxes--the national, 
the regional, and local. Before the person could put it in the 
box, they had to dip their finger in, and I wanted to do the 
same thing. I wanted to feel a part of this. And I went and 
asked this person who was in charge if I could stick my hand in 
the ink jar. She looked up at me and then looked around and 
looked up at me and said, ``No.'' She said, ``You are not an 
Iraqi.'' And I felt a little embarrassed as everyone looked at 
me.
    And then I thought, you know, they are proud. And there is 
this identity, and we are going to win. They are going to win. 
I believe that with all of my heart and soul.
    I also want to say for the record, since I just believe it 
with all of my heart and soul, you should be proud to do what 
you are doing.
    We are proud, so many of us are proud of what you are 
doing. I am grateful that you came to this hearing today, and I 
am grateful that you are helping us start to sort out an issue 
that we have not gotten a handle on. And I believe, mixed in 
this dialog of two different issues, if people are paying 
attention, you have given us very, very important advice.
    You have honored this committee, you have honored this 
Congress by your presence. I am very grateful to each and every 
one of you.
    Do you have any closing comment or should we get to the 
next panel?
    Mr. Kucinich. Go for it.
    Mr. Shays. Thank you. Before I end, what I do--I would like 
this: Is there any question we should have asked? Is there any 
point that you choose to make that needs to be made? Any 
closing comments?
    Mr. Christoff.
    Mr. Christoff. No.
    Mr. Rodman. I just want to add and second what the chairman 
just said, but point out also on election day, it was the 
Iraqis that took the responsibility for security, to protect 
5,300 polling places around the country. And the insurgents 
threw everything they had at the election process, double or 
triple the number of attacks around the country, and not one of 
these polling places had its perimeter breached by the 
insurgents. So that is an indicator.
    We are struggling here to find ways of measuring quality, 
and one of them is how these Iraqis are performing under the 
pressure of battle. And January 30th was an important omen in 
many respects.
    Mr. Shays. Thank you.
    Ambassador Jones. Thank you very much for having us today.
    Mr. Shays. Thank you for your patience.
    Mr. Kucinich. Mr. Chairman, before we move on, just a 
little bit of committee business. I wanted to, without--with 
unanimous consent----
    Mr. Shays. Gentlemen, you are set to go.
    Mr. Kucinich [continuing]. With unanimous consent, include 
the full report of the Office of Inspector General for the Iraq 
Reconstruction.
    Mr. Shays. That will be included.
    [Note.--The Office of the Special Inspector General for 
Iraq Reconstruction report entitled, ``Oversight of Funds 
Provided to Iraqi Ministries Through the National Budget 
Process,'' may be found in subcommittee files.]
    Mr. Kucinich. By unanimous consent, the Congressional 
Research Service report on the International Training for Iraqi 
Security Forces.
    Mr. Shays. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.116
    
    [GRAPHIC] [TIFF OMITTED] T0923.042
    
    [GRAPHIC] [TIFF OMITTED] T0923.043
    
    [GRAPHIC] [TIFF OMITTED] T0923.044
    
    [GRAPHIC] [TIFF OMITTED] T0923.045
    
    [GRAPHIC] [TIFF OMITTED] T0923.046
    
    [GRAPHIC] [TIFF OMITTED] T0923.047
    
    Mr. Kucinich. And then the letter, too. And Mr. Waxman's 
letter also by unanimous consent.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.048
    
    [GRAPHIC] [TIFF OMITTED] T0923.049
    
    [GRAPHIC] [TIFF OMITTED] T0923.050
    
    [GRAPHIC] [TIFF OMITTED] T0923.051
    
    [GRAPHIC] [TIFF OMITTED] T0923.052
    
    [GRAPHIC] [TIFF OMITTED] T0923.053
    
    [GRAPHIC] [TIFF OMITTED] T0923.054
    
    [GRAPHIC] [TIFF OMITTED] T0923.055
    
    [GRAPHIC] [TIFF OMITTED] T0923.056
    
    [GRAPHIC] [TIFF OMITTED] T0923.057
    
    [GRAPHIC] [TIFF OMITTED] T0923.058
    
    [GRAPHIC] [TIFF OMITTED] T0923.059
    
    [GRAPHIC] [TIFF OMITTED] T0923.060
    
    [GRAPHIC] [TIFF OMITTED] T0923.061
    
    [GRAPHIC] [TIFF OMITTED] T0923.062
    
    [GRAPHIC] [TIFF OMITTED] T0923.063
    
    [GRAPHIC] [TIFF OMITTED] T0923.064
    
    [GRAPHIC] [TIFF OMITTED] T0923.065
    
    Mr. Shays. We will have a 1-minute recess. Then we will 
reconvene in 1 minute.
    [Recess.]
    Mr. Shays. Our second panel is Professor Anthony H. 
Cordesman, Arleigh A. Burke Chair in Strategy, Center for 
Strategic and International Studies.
    Kalev Sepp, professor of the Naval Postgraduate School, and 
Mr. Peter Khalil, former Coalition Provisional Authority 
Official, the Brookings Institution.
    Gentlemen, as you know, we do swear you in; and if you 
would stand, I would look forward to swearing you in and 
hearing your testimony.
    [Witnesses sworn.]
    Mr. Shays. Your testimony is of tremendous interest to this 
committee. Quite often, the second panel, having heard the 
first panel, is able to help us sort out these issues in a way 
that is very helpful.
    So what I am going to do is allow you to go beyond your 5-
minute testimony, up to 10 for each of you, if you would like, 
and then we can have some dialog. And with not many Members 
present, we can have a lot better give-and-take.
    So feel free to go through your testimony, if you would 
like.

STATEMENTS OF PROFESSOR ANTHONY H. CORDESMAN, ARLEIGH A. BURKE 
   CHAIR IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL 
STUDIES; KALEV SEPP, PROFESSOR, NAVAL POSTGRADUATE SCHOOL; AND 
PETER KHALIL, FORMER COALITION PROVISIONAL AUTHORITY OFFICIAL, 
                   THE BROOKINGS INSTITUTION

          STATEMENT OF PROFESSOR ANTHONY H. CORDESMAN

    Professor Cordesman. Thank you very much, Mr. Chairman. And 
thank you for the opportunity to testify this afternoon. I do 
have a formal statement for the record, which basically 
attempts to summarize what Iraqi attitudes are toward the 
training and the level of development of their forces, and to 
provide some additional data in direct response to the 
committee's questions about numbers. And I ask that be placed 
in the record.
    Mr. Shays. Without objection, it will be.
    Professor Cordesman. But let me make a few brief remarks.
    First, I think that we need to be very careful about how 
much attention we give to any of those numbers. We are talking 
about a force that is in very rapid change and where much of 
what we can quantify, I thought, as was well brought out in the 
previous panel, is largely irrelevant.
    We are talking about developing warfighting capabilities, 
counterterrorism capabilities and counterinsurgency 
capabilities, and the number of heads is not a measure of 
capability.
    Moreover, I think it is quite clear that even the plans we 
have today are not going to survive engagement with reality. If 
you look at the training methods that have been used, the 
training syllabus, the methods of training have changed 
virtually monthly since June 2004.
    If you look at force levels, the army in June 2004, did not 
have a clear goal. It then went to three divisions. Then it 
went to four divisions. It recently went to nine divisions. It 
has just gone to 10 divisions. And that, all since the end of 
January.
    And these are numbers in flux because the National Guard 
was merged into the army, as an Iraqi not an American division. 
Depending on what day this is, there are 13 to 14 different 
elements of Iraqi forces in the Ministry of Interior and the 
Ministry of Defense. Each serves a different purpose. Each has 
some value. Most are not capable of operating independently.
    We know that there is a new Minister of Defense and a new 
Minister of the Interior coming. Papers are already being 
prepared for them. If we go back to what happened in the 
transition from the CPA to the interim government, that almost 
certainly means there will be still further changes in 
virtually every force in the overall pattern of Iraqi forces.
    And the real government, in the sense of a truly elected, 
sovereign government is supposed to be the product of the 
election to be held either at the end of this year or the 
spring of 2006. And I can almost guarantee you, from talking to 
Iraqis, that with each month that goes by, they're going to 
impose more of their own plans and their own demands.
    But, having said that--and I think the key message of what 
I said is this debate over tipping points is absurd. We are 
talking about tipping years, at a minimum, 2005-2006. And just 
having talked to Iraqi officials, they are talking about a 
continued training and advisory presence through 2010.
    We are also talking about some important changes which go 
beyond the numbers. We have begun to recognize the realities of 
the insurgency. I do not agree with what was said earlier.
    We did not anticipate the size of the insurgency. It is not 
a product of what Saddam and his forces left as a legacy. It 
has mutated far beyond that. There are strong Islamist and 
other elements, and it has considerable popular support, a 
point made by Iraqi officials when they talk about some 200,000 
sympathizers.
    But at least we understand we are fighting an insurgency, 
and we are fighting real terrorists. We understand Iraqi forces 
have to be trained and equipped and led and given unit 
integrity for that mission. We begin to understand at least 
that our original equipment plan was grossly inadequate, as was 
our facility plan.
    We still have no clear plan to give Iraqi forces at any 
level the equipment they need, but people are working on the 
issue, and they are beginning to understand that if our troops 
need up-armored Humvees, Iraqis cannot go out in unprotected 
Toyotas. We see efforts to correct the facility problem. That 
has been done largely in the military. It is now going to the 
police and security forces.
    In reality, we recognize that much of what was on the first 
chart presented to the committee was manpower which should 
never have been recruited in the first place. It wasn't 
properly vetted; some of it wasn't literate. Much of it was in 
poor physical condition or too old. And much of it, frankly, 
was not put through the full training process that it was to 
have been put through by the Coalition. That is being 
corrected, particularly in the police and in the National 
Guard.
    With the Luck mission, we begin to understand one key 
reality: Training never can produce competent combat troops. 
Without leadership, without unit integrity, without experience; 
this is not a factory. It is the battalions who actually 
operate, learn in the field, sometimes from defeat, as you 
pointed out, who have the courage to go on, who become 
effective troops. No training system will ever produce those by 
itself.
    We also are beginning to see serious force elements, and 
let me use some figures which are somewhat more up to date than 
the ones presented on the chart shown earlier, although only by 
a couple of weeks. We had one deployable battalion in July 
2004. As of yesterday, we had claimed we had 52 deployable 
battalions, out of a total of some 96 in structure. We have 24 
deployable regular army battalions, and that will be 27 by the 
end of next week.
    Mr. Shays. I don't like to interrupt your testimony, but 
can you put numbers of personnel next to those?
    Professor Cordesman. To be perfectly honest, sir, the 
numbers are going to be the same kind of numbers you get when 
they are reported on by the U.S. Army, which is to say they are 
nominal strengths, not real ones.
    Mr. Shays. OK. I guess what I am trying to do is--is it 
possible for me to hear your numbers compared to these numbers?
    Professor Cordesman. Those numbers, as far as I know, sir, 
are totally accurate. But if you were to say 24 to 27 regular 
army battalions, that is something between 11,000 and 13,000 
men. Those are part of the numbers on that chart. Now, they 
have just had merged into them 76 battalions from the National 
Guard. That would raise the figure by another 30,000 out of the 
60,000. There is one mechanized battalion in that total. That 
is much more critical than, say, 20,000 of the men on the 
chart, because it means there are heavy units. You have a 
counterterrorism force, and you have commando battalions that 
are key elements there.
    If you look at that total of some 82,000 men on the other 
side of the chart, the total numbers are largely irrelevant. 
But if you look within them, there are now 20 special police 
force battalions. Nine of those are police commandoes; nine are 
public-order battalions. Two are mechanized, and they have 
light-armored vehicles for the first time. Those are the first 
units who can actually go out and move, potentially, in the 
face of the insurgency. You have SWAT teams coming on line. 
There are five of them in service.
    For the first time, there is actually a border battalion 
trained and equipped to move, as distinguished from sitting 
there and hoping that the bad guys come through them. There is 
a national emergency police force. Now, how many people is 
that? I haven't the faintest idea, because it's quite clear the 
advisory teams feel those battalions in the police force are 
much too large, very inefficient and need to be cut down and 
reorganized.
    It is somewhere around 16,000 out of those 82,000 people 
that probably have some capability. But if you ask me, frankly, 
how many of these units could really stand without the U.S. 
Army or Marine Corps presence or the support of the U.S. Air 
Force or without U.S. intelligence, the answer at this point is 
none. They are not organized or equipped for that mission.
    And, quite honestly, it is disingenuous to talk about how 
well the Iraqis did in protecting polling places when we have 
some 140,000 U.S. troops peaked and reorganized for 1 day to 
help protect the people protecting the polling places. That is 
not an indictment of what's being done. It produced a 
successful election.
    Let me then go on, though, to point out a few things about 
what does have to happen. It is probably more important by far 
that Iraq evolve political unity and inclusiveness than it is 
that Iraq move forward in any given military or police 
dimension. It is critical for security that the economy and the 
distribution of income improve.
    We talk a lot about the Iraqi troops, but let me note that 
in this latest USAID report, we talk about a vast U.S. aid 
program which is today only hiring about 100,000 Iraqis, and 
the number keeps dropping. Security is economic, not just a 
matter of military forces.
    The numbers that you have on that chart for the police and 
security forces do not include local police and militias that 
are not trained by the United States, but at least in 10 to 12 
of the provinces, security is much more a matter of day-to-day 
police work, putting it into the threat of criminal activity, 
than it is the United States or the multinational coalition's 
training effort.
    We are just beginning to see governance move into most of 
the provinces, aside from the Kurdish areas. None of us know 
what the new elected government will be or how it will change 
police and security procedures. We are only beginning to know 
how corrupt this structure is going to be. And let me say that 
the chances of Iraq not having substantial corruption for at 
least the next 10 years are nonexistent. To demand they not be 
corrupt is simply absurd. It cannot happen.
    Mr. Shays. Let me not try to cut you short, but just give 
me a sense of how much longer you think you will be going.
    Professor Cordesman. Two minutes, sir, I think.
    Mr. Shays. OK.
    Professor Cordesman. Having said that, on the military 
side, our goal really has to be to put forces in the field that 
can stand on their own. A plan is being developed to do that. 
No plan has been stated in any unclassified forum as to how it 
will be done. Any plan we draft then has to be approved by the 
Iraqis, and at some point, the Congress is going to have to go 
through that plan and fund a level of military equipment, 
facilities and aid which it has never been requested to provide 
and is not part of the supplemental.
    To make this work, the Congress has to be responsive 
quickly. It has to have trust in the nature of those 
requirements, and it has to accept the fact that there isn't 
going to be an efficient or effective accounting system in the 
future any more than there was in that $8.8 billion that we 
just heard in the first session of this hearing.
    Thank you.
    [The prepared statement of Professor Cordesman follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.066
    
    [GRAPHIC] [TIFF OMITTED] T0923.067
    
    [GRAPHIC] [TIFF OMITTED] T0923.068
    
    [GRAPHIC] [TIFF OMITTED] T0923.069
    
    [GRAPHIC] [TIFF OMITTED] T0923.070
    
    [GRAPHIC] [TIFF OMITTED] T0923.071
    
    [GRAPHIC] [TIFF OMITTED] T0923.072
    
    [GRAPHIC] [TIFF OMITTED] T0923.073
    
    [GRAPHIC] [TIFF OMITTED] T0923.074
    
    [GRAPHIC] [TIFF OMITTED] T0923.075
    
    [GRAPHIC] [TIFF OMITTED] T0923.076
    
    [GRAPHIC] [TIFF OMITTED] T0923.077
    
    [GRAPHIC] [TIFF OMITTED] T0923.078
    
    [GRAPHIC] [TIFF OMITTED] T0923.079
    
    [GRAPHIC] [TIFF OMITTED] T0923.080
    
    [GRAPHIC] [TIFF OMITTED] T0923.081
    
    [GRAPHIC] [TIFF OMITTED] T0923.082
    
    [GRAPHIC] [TIFF OMITTED] T0923.083
    
    [GRAPHIC] [TIFF OMITTED] T0923.084
    
    [GRAPHIC] [TIFF OMITTED] T0923.085
    
    [GRAPHIC] [TIFF OMITTED] T0923.086
    
    [GRAPHIC] [TIFF OMITTED] T0923.087
    
    [GRAPHIC] [TIFF OMITTED] T0923.088
    
    [GRAPHIC] [TIFF OMITTED] T0923.089
    
    [GRAPHIC] [TIFF OMITTED] T0923.090
    
    Mr. Shays. Are you talking about the $9 billion reference?
    Professor Cordesman. Yes. I thought, frankly, Congressman, 
with all due respect, that was to take a report totally out of 
context; talking about the lack of adequate accounting 
procedures and somehow act as if the money was missing or no 
one knew in broad or even, frankly, fairly detailed terms where 
it went. The report did not say that.
    Mr. Shays. Well, having not read the report yet, I'm not in 
the position to respond to it. But just before I recognize you, 
Professor Sepp, the one thing that I have to agree with my 
colleagues on the other side of the aisle, because we haven't 
conducted hearings in that area, we basically provide the 
minority their only opportunity to kind of ambush any witness 
that they can try to make a statement or try to understand the 
issue.
    So my basic view is we should just bite the bullet and have 
the hearings on these issues and know what is accounting 
issues, know what is waste, what is corruption, whatever. And 
until we do that, we are going to end up having these kinds of 
bifurcated hearings, which are regretful.
    But I hear your point, and I happen to agree with it.
    Professor Cordesman. Thank you, sir.
    Mr. Shays. Thank you. And I appreciate your statement. I 
will say that, when I said 10 minutes, I did not look down and 
fully grasp that both of you are professors, and that was a 
dangerous thing to do. I think we gave you about 14. But the 
other part was that, unlike some professors, you were very 
provocative, and you have raised a number of questions.
    You speak in some absolutes, which makes me wonder if it 
can be quite that absolute. But very helpful testimony. I thank 
you.
    Professor Sepp.

                  STATEMENT OF KAVLEV I. SEPP

    Professor Sepp. Mr. Chairman, it is an honor for me to have 
this opportunity to discuss the training of Iraqi security 
forces.
    Mr. Shays. It is an honor to have you here. Thank you.
    Professor Sepp. Thank you, sir. I believe you are justified 
in examining the plans for the training of Iraqi security 
forces, as security of the lives and property of the native 
population is one of the most important objectives of a viable 
counter-insurgency strategy.
    Mr. Chairman, I have provided written testimony for the 
record. I would now like to outline for you the salient points 
that I think would be most helpful to you in your 
deliberations.
    Mr. Shays. That would be great.
    Professor Sepp. As a trained historian, some of these will 
be historical in nature and known to you, but it builds to my 
point.
    Mr. Shays. As an amateur historian, I'll look forward to 
it.
    Professor Sepp. First, the situation in Iraq. There is a 
violent insurgency in Iraq that directly threatens U.S. 
strategic interests in the Middle East and Southwest Asia. 
Depending which estimate one consults, between 10,000 and 
50,000 armed combatants, supported by hundreds of thousands of 
auxiliaries and sympathizers, are seeking to overthrow the 
existing Iraqi government and expel the coalition from Iraq.
    The security situation in Iraq is almost wholly dependent 
on the continued long-term presence of coalition forces and 
U.S. forces in particular. The situation is due to the near 
complete elimination of the old regime's armed forces and 
internal security apparatus by its physical destruction and its 
disestablishment by coalition military forces and the Coalition 
Provisional Authority respectively.
    The failure to fill the security vacuum was due to 
incomplete planning by the commander and staff of U.S. Central 
Command, who confused fighting a war with winning a war. The 
absence of sufficient U.S. forces in Baghdad to establish and 
enforce martial law at the moment of collapse added to the 
degeneration of the security situation.
    These failures were compounded by the posting of the chief 
of reconstruction, who had agreed to serve for only 90 days, 
inferring that a country distorted by a decades old 
dictatorship could be rehabilitated in only 3 months.
    Mr. Shays. What was that, the chief of reconstruction? 
Because I may forget how you said that, I didn't understand 
what you said. The chief of reconstruction. Who was that?
    Professor Sepp. The Office of Reconstruction and 
Humanitarian Assistance.
    Mr. Shays. General Garner?
    Professor Sepp. Lieutenant General J. Garner.
    Mr. Shays. Oh. And he came in before Bremer?
    Professor Sepp. Yes, sir.
    Mr. Shays. He would only be there for?
    Professor Sepp. Ninety days. He told me personally that was 
his agreement with the Secretary of Defense.
    Mr. Shays. Yes. I hear you. I just needed to make sure we 
were identifying the right issue.
    Professor Sepp. And on that point, consider by contrast the 
lengthy occupation and reconstruction of the American South and 
the slow formation of a new army of national unity after our 
own Civil War.
    The subsequent decision by the head of the Coalition 
Provisional Authority to disband the entire Iraqi armed forces 
rather than gradually demobilize them placed the burden on 
providing security for the Iraqi people entirely on the 
coalition occupation forces. That is the situation.
    Second, the training of Iraqi security forces by U.S. 
military personnel. This is a problem because the U.S. military 
has historically not done a good job of training foreign 
armies. The Filipino army the U.S. trained before World War II 
was handily defeated by the Japanese. The South Korean army 
trained by the United States after World War II was initially 
beaten by the North Koreans. In the early 1960's, the South 
Vietnamese army was trained by the United States for 
conventional warfare, which was unsuited to the 
counterinsurgency. And then in 1975, they were defeated by the 
North Vietnamese.
    Further, in the past half century, the United States has 
not done well at fighting insurgencies. It was defeated in 
Vietnam and, since then, has not taught counterinsurgency in 
its military schools. The striking exception to this is the 
success in El Salvador in the 1980's. But the military 
contributed only a miniscule number of personnel to that 
effort, and it came mostly from the special forces, which 
functioned outside the mainstream military forces.
    Why doesn't the U.S. military do a good job of training 
foreign armies? Essentially, the answer is, when it comes to 
combat, Americans want to do it ourselves and do it fast. But 
in counterinsurgency, the host nation must fight its own 
battles, and the timetable is one of years and not months. The 
British counterinsurgency in Malaya, comparable in several ways 
to the situation in Iraq, lasted over 10 years. The Salvadoran 
Civil War, which ended in a U.S. policy success, went on for 
12.
    All of this is to say, there is no historical evidence that 
the larger U.S. Armed Forces can quickly and effectively train 
a foreign army to fight a counterinsurgency. An example of this 
is the Iraqi 36th Commando Battalion, and its example is 
instructive. The unit is held up, justifiably, as the premier 
fighting unit of the Iraqi security forces. Only the Iraqi 
counterterrorist force is considered near its equal.
    The battalion was trained and, until recently, led by U.S. 
Special Forces' sergeants and officers. Its recruits were 
chosen by the Iraqi political leadership personally to 
demonstrate their ability for self-defense. There were no 
Sunnis in its ranks. Nonetheless, it lost a quarter of its 
recruits just in training. Many of its leaders had to be 
replaced, often for issues of corruption and cowardice. There 
was no system for a year to replace casualties and desertions. 
The Iraqi troops initially went unpaid. They were initially 
equipped with uniforms that literally fell apart at the seams 
and with the poorest quality weapons.
    When senior U.S. commanders deployed the battalion like an 
American unit around the country, they were given the wrong 
food and sanitation facilities. They were also too far from 
their homes. This matters because the Iraqis are actually day-
to-day volunteers and would leave the unit if they did not 
receive certain basic accommodations.
    So after a year of intensive training and experience and 
the full time and attention of half a company of embedded 
special forces, the 36th Battalion is competent at only one 
kind of mission, company level cordon and search operations. 
That is the best in the country after 1 year.
    Finally, what can be done? A counterinsurgency strategy 
must be implemented, emphasizing intelligence operations and 
the training of police as a priority over military units. The 
police and military must be trained specifically to fight an 
insurgency.
    The very best people, best Americans and units, need to do 
the training and advising of the police and military units. Not 
contractors, who have already performed poorly; not U.S. 
National Guard troops, who have accomplished a number of tasks 
admirably but are the least trained of U.S. forces and have no 
experience or training in counterinsurgency; and not using 
partnership relations, which may result in Iraqi reliance on 
U.S. units and leaders. Appropriate equipment and technology 
must be provided for the police first. This includes even 
simple items, like eyeglasses and hand-held radios.
    It would help to understand that training must extend 
beyond the teaching of simple skills and must include the 
culturalization into the mores of service. And this addresses 
the point of dealing with corruption. Human rights training 
must be included in all programs. It currently is not.
    Lots of time is essential. All historical evidence 
indicates this is going to be a long war. Finally, we must 
trust the Iraqis enough to let them learn how to fight this war 
for themselves, and we must have the patience to see it 
through. Thank you, Mr. Chairman.
    [The prepared statement of Professor Sepp follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.091
    
    [GRAPHIC] [TIFF OMITTED] T0923.092
    
    [GRAPHIC] [TIFF OMITTED] T0923.093
    
    [GRAPHIC] [TIFF OMITTED] T0923.094
    
    [GRAPHIC] [TIFF OMITTED] T0923.095
    
    [GRAPHIC] [TIFF OMITTED] T0923.096
    
    [GRAPHIC] [TIFF OMITTED] T0923.097
    
    [GRAPHIC] [TIFF OMITTED] T0923.098
    
    [GRAPHIC] [TIFF OMITTED] T0923.099
    
    [GRAPHIC] [TIFF OMITTED] T0923.100
    
    [GRAPHIC] [TIFF OMITTED] T0923.101
    
    Mr. Shays. Thank you, very much.
    Mr. Khalil.

                   STATEMENT OF PETER KHALIL

    Mr. Khalil. Thank you, Mr. Chairman. Again, it is also a 
great honor to testify. Is this working, sir?
    Mr. Shays. It is working, but I think the lower you have it 
down, the better it is.
    Mr. Khalil. Yes. Thank you for the opportunity to testify 
today. It is an honor.
    By way of quick introduction, I was an independent civil 
servant sent to Iraq as part of my country's contingent to the 
Coalition Provisional Authority to work on specifically 
rebuilding the Iraqi national security forces and the 
institutions.
    Mr. Shays. Tell me a little of where that accent comes 
from.
    Mr. Khalil. Australia. I was sent to Iraq as part of the 
Australian Government's contingent.
    Mr. Shays. That is what wasn't clear to me. Having lived in 
Fiji, that is an accent that I have gotten very used to and 
love. I lived in Fiji for 2 years.
    Mr. Khalil. You won't have trouble understanding my 
testimony, then.
    I was in Iraq as a civilian security and defense advisor 
for the CPA from August 2003 until May 2004. And in that 
capacity, I worked very closely with the Iraqi political 
leadership on rebuilding Iraqi security forces and 
institutions, including the new Iraqi civilian-led Ministry of 
Defense.
    I would like to also say it was a great honor to serve my 
country and also the U.S. led coalition in Iraq.
    Mr. Shays. Now, again, how long were you there?
    Mr. Khalil. Nine months, sir.
    Mr. Shays. Thank you for your service.
    Mr. Khalil. I hope, too, that the fine tradition of the 
Australian-U.S. alliance continues and that friendship 
continues, based not just on our shared strategic interests, 
but our shared values, I think.
    I should note, too, that I had the opportunity to work 
closely with Ambassador Dick Jones. And in my experience in 
working with Ambassador Jones, he was an exemplary leader and 
an exemplary diplomat. I learned a lot from him by watching his 
negotiations with the Iraqi leaders.
    The U.S. strategy, Mr. Chairman, concerned with security 
and training of Iraqi forces is, at least at the strategic 
level, fundamentally sound; that is training Iraq security 
forces and having them take over responsibility for directly 
dealing with the insurgents so that U.S. forces can gradually 
withdraw. You have heard a lot of detailed outlines about the 
many types of forces that exist and their numbers and their 
training. I would like to focus my remarks in the brief time I 
have specifically on the overall strategy for developing these 
forces and having them transferring responsibility to those 
particular security forces from the coalition security forces, 
particularly looking at which types of Iraq security forces 
have those capabilities to fulfill that mission.
    Mr. Shays. Great.
    Mr. Khalil. It is the quality, not the quantity, of Iraqi 
security forces which is critical to a realistic transfer of 
security responsibility over the next 24 months. Although the 
CPA and U.S. military did move quickly to begin basic training 
of the different types of Iraqi forces that we have heard 
spoken about today, the army and the police and the national 
guard, which was earlier known as the ICDC, there was an 
initial emphasis on the quantity of forces; that is getting 
Iraqi boots on the ground. So while the vast majority of the 
Iraqi security forces, and I think we have heard a figure here 
of something like 142,000 or 144,000 said to be trained and in 
uniform, they do have basic security skill sets, but what they 
don't have are the required training or capabilities to conduct 
offensive or even defensive operations against the insurgency.
    Now, I don't imply by this that there shouldn't be a large 
number of Iraqi security forces that do actually exist. It's 
just that they each have a role and function, as in any 
society, and not all of them can or should be thrown onto the 
front line of the insurgency. As the insurgency intensified 
through the summer of 20O3, the CPA did develop policies to 
train the high-end security forces that have been briefly 
discussed today.
    And I will talk specifically about the nine battalions of 
army special forces, that's the counterinsurgency wing of the 
Iraqi army, and some of the Ministry of Interior special 
forces. I'm talking about something like six or seven 
battalions of special police commando units, three or so 
counterterrorism battalions, who grew out of the Iraq national 
guard and the army, SWAT teams, and also specific types of 
emergency response units, which are much smaller. What those 
types of forces do have is the specific role and mission of 
effectively countering the insurgency and relieving combat 
pressure from U.S. forces.
    As far as problems with the vetting, training and 
recruitment of both Iraqi police services and the Iraqi 
national guard, which are the bulk of those 144,000 we have 
discussed, many of those problems can be traced back to the 
fact that, initially, throughout 2003 and early 2004, much of 
the training and vetting of recruits for these services was 
decentralized. So what you had was local United States and 
coalition military commanders having the responsibility to 
raise and train and equip these local forces, these units. So 
it led to a lack of standardization in both recruitment and 
training, and in very uneven vetting procedures for the 
recruits across the country.
    I am talking here about the national guard units and also 
the Iraqi police, both local forces, locally utilized and 
locally trained. There was real immense pressure on the United 
States and coalition military commanders to get Iraqi boots on 
the ground, which led to many local police simply being 
reconstituted.
    What I mean by that is that former police officers were 
basically reemployed in the town and told, you are back on the 
beat, without having to go through the required police academy 
training that was set under the Ministry of Interior. Many 
national guardsmen went through very minimal levels of basic 
training, sometimes as low as 2 weeks. So both of these forces 
were then expected to be the bulk of Iraq forces that were 
facing the insurgents.
    In a sense, the training and vetting problems have actually 
been rectified. Particularly, the raising and equipping of the 
Iraqi police services and the Iraq national guard have now been 
centralized, first under Major General Eaton in the spring of 
2004, and, now, currently, of course, under his successor, 
Lieutenant General David Petraeus. So, for example, the 
national guard training, which was very uneven across the 
country, is now very standardized and involves, under General 
Petraeus, 3 weeks basic training and 3 to 4 weeks of collective 
training. And you have many policemen being sent back to the 
police academies to actually complete the training or begin the 
training which they had not actually undertaken in the year 
before.
    Many of the bad apples who slipped in through the uneven 
vetting that occurred in that first year and a half have been 
removed. So that is why you see a big dip in the numbers of 
police forces. I can't remember the chart myself, because I had 
the back of it there, but I think I remember seeing a chart 
like that. But there is a big dip of police numbers, I think, 
in mid 2004 and late 2004 because many of the police have gone 
back into training or have been removed because of new vetting 
that is being undertaken by General Petraeus.
    However, and there is an important point to all of this, 
the national guard capabilities are still limited to basic 
security tasks: fixed-point security, route convoy security, 
joint patrolling with coalition forces. And the police, of 
course, are trained in local policing, basic law-and-order 
tasks. Neither are counterinsurgency trained forces, which is a 
very important point. They did perform their tasks, both the 
police and national guard, with great distinction during the 
elections, and they were charged with crowd and cordon and 
perimeter security. That's what they were trained to do, to 
protect polling centers and government buildings and so forth, 
yet they still require heavy U.S. logistical and combat 
support.
    Now, in contrast to the national guard and the Iraqi police 
services, the Iraqi army has had a centralized vetting and 
training structure from its inception. So as a result, the 
Iraqi army, and I am separating this from the Iraqi national 
guard, has attracted a higher quality of recruits who have 
underwent, from the beginning, thorough and standardized 
vetting, and that included very tough psychological testing. 
And the training itself has been of a very high standard from 
its inception.
    So the key, Mr. Chairman, to a realistic transfer of 
security responsibility from U.S. forces to Iraqi forces rests 
not only with the Iraqi army special forces, which are numbered 
at about nine battalions at the moment. And you were asking 
earlier of Professor Cordesman, I think, the number of each 
battalion is about 800 for Iraqi army battalions, and that 
includes the special forces battalions. But more importantly, 
also, on the high-end internal security forces that are being 
trained under the Ministry of Interior, and they are important 
because they have specialized training and skill sets, and they 
have an ability to combine intelligence gathering, and I think, 
much better in some ways than United States and coalition 
intelligence gathering, because they understand the language 
and the culture, but also law enforcement and light infantry 
paramilitary capabilities in their tasks of taking on the 
insurgents.
    They performed well. Some of the units have performed well 
in operations in Fallujah and Samarra in late 2004, and even a 
unit of Iraqi SWAT team rescued some Iraqi hostages in Kirkuk 
with minimal U.S. support. At present, though, the 
counterinsurgency and counterterrorism forces that I am talking 
about are a very small percentage of the total 144,000 of Iraqi 
forces said to be trained and in uniform.
    So as I said, you could probably estimate around nine Iraqi 
army special forces battalions; six special police commando 
units; three mechanized police battalions that were earlier 
discussed; the SWAT team is around 270 personnel, I think; and 
three counterterrorism battalions that grew out of the national 
guard and the army, and Professor Sepp talked about the 36th 
battalion, which is part of that.
    The Coalition, as far as I understand it, has a goal of 33 
or so battalions or 30-plus battalions of these highly trained 
internal security forces, including the Army special forces. So 
something like 25,000 men, if you want to look at numbers. But 
I would emphasize that numbers are not the most important 
thing. It is really the quality of these Iraqi forces to 
complete these tasks and security missions.
    If they can operate at the point of the spear with the 
remaining bulk of those 270,000, or projected 270,000, Iraqi 
forces acting in a supporting role, there is a very good chance 
of weakening and defeating the insurgency, obviously in 
combination with political and economic developments, which are 
just as important in any counterinsurgency operation.
    Just a few quick words about training. I know I am running 
out of time, Mr. Chairman.
    The important point about training, I would say, is that 
accelerating training of Iraqi forces is a very big mistake, if 
anyone is contemplating that, or if the administration is 
contemplating that. Because if you cut training cycles from 8 
weeks to 2 weeks, you are sending out forces that are less than 
capable.
    Mr. Shays. But if you could add more numbers and do the 
same amount, you don't object to that?
    Mr. Khalil. That is absolutely correct, Mr. Chairman. If 
you have more trainers there, you can put more Iraqis through 
the training pipeline, and you will get more out quicker.
    Mr. Shays. As long as you can vet them.
    Mr. Khalil. As long as you can vet them, yes.
    Now, I should point out with the vetting, Mr. Chairman, 
that the vetting procedures, the other advantage of 
centralizing vetting under General Petraeus is that the Army 
vetting was actually quite thorough for the Iraqi army 
recruits. There was a Ministry of Defense starter base that was 
salvaged from some of the facilities which has the name of 
something like 400,000 Iraqi men who had undertaken military 
and other police type services, so you could have a look and 
cross-check new recruits against that.
    Of course, there are many new recruits that don't have 
prior military service, and they are usually the young guys who 
are joining up in the new army.
    The last comment I would make, Mr. Chairman, is on the 
relationship between the multinational force, Iraq and the 
Iraqi security forces. You have heard that the MNF-I is 
mandated under UNSCR 1546 to support the besieged Iraqi 
Ministry of Security Forces, the internal security forces, 
which under this arrangement retrain primary responsibility for 
Iraqi internal security. And during the interim period, the 
Iraqi police and other internal security forces did begin 
coordinating very well with the coalition and Iraqi military 
forces through a network of local, regional and national 
structures.
    There is some complexity in the command structures of the 
MNF-I, and I would refer you to the written testimony for a 
fuller explanation of that, Mr. Chairman.
    In conclusion, though, there is an authentic Iraqi 
partnership with the Coalition, in the sense that the Iraqi 
armed forces are very much an active member of the coalition 
forces. There are senior Iraqi military officers throughout the 
MNF-I command structure, and their involvement makes them real 
owners of the operational tactical security objectives that the 
MNF-I is undergoing at the moment. I think also it is very 
important because it will aid a smoother transfer of full 
security responsibility to Iraqis post-December 2005.
    Mr. Chairman, there is one last comment I would like to 
make in wrapping up, and it is on the issue of the insurgency. 
And I noted, very quickly, Professor Cordesman talked about the 
insurgency. The best way to look at the insurgency is to look 
at it in three-ring circles. The inner circle is the 15,000, 
20,000 or 25,000 fighters who are involved in the insurgency. 
They are made up of, the 90 percent of them, rather, are made 
up of former regime security personnel. So the guards from the 
Special Republican Guard, the Mukhabarat intelligence, and so 
on. There is a smaller number of that insurgency that are 
Islamic Jihadists, both foreign and also Iraqi jihadists.
    Mr. Shays. Within the 25 or in addition to?
    Mr. Khalil. Within the 25,000, sir, yes.
    And then you also have a criminal element, if you like, of 
gangs and mercenaries, who are doing--who are conducting 
attacks on the coalition for monetary purposes. And that is 
part of that insurgency as well.
    Then there is an element--when we talk about, why is the 
insurgency growing--an element of Iraqis who have joined the 
insurgency out of anger, anger and a need to have some sort of 
revenge against possibly coalition forces who have killed 
relatives or so on. And many of these are also possibly former 
military security personnel.
    There was a question earlier by Representative Kucinich 
about why these hard-core personnel are growing. Well, there 
was a large number of ex-military security personnel. Not all 
have joined the insurgency. Some are starting to join up based 
on a variety of different reasons. But the question as to its 
popularity, I think, is very important because it is a minority 
within a minority.
    The middle circle is approximately around 200,000 
sympathizers who are supporting them, and the outer circle is 
really the passive population of Iraq. And not all those people 
are supporting the insurgents.
    [The prepared statement of Mr. Khalil follows:]

    [GRAPHIC] [TIFF OMITTED] T0923.102
    
    [GRAPHIC] [TIFF OMITTED] T0923.103
    
    [GRAPHIC] [TIFF OMITTED] T0923.104
    
    [GRAPHIC] [TIFF OMITTED] T0923.105
    
    [GRAPHIC] [TIFF OMITTED] T0923.106
    
    [GRAPHIC] [TIFF OMITTED] T0923.107
    
    [GRAPHIC] [TIFF OMITTED] T0923.108
    
    [GRAPHIC] [TIFF OMITTED] T0923.109
    
    [GRAPHIC] [TIFF OMITTED] T0923.110
    
    [GRAPHIC] [TIFF OMITTED] T0923.111
    
    [GRAPHIC] [TIFF OMITTED] T0923.112
    
    [GRAPHIC] [TIFF OMITTED] T0923.113
    
    [GRAPHIC] [TIFF OMITTED] T0923.114
    
    [GRAPHIC] [TIFF OMITTED] T0923.115
    
    Mr. Shays. Great. Thank you.
    Let me first ask, and I am not looking for a debate, but I 
want an honest dialog where any of you may differ with someone 
else on the panel here.
    So are there things you would differ in terms of emphasis 
or totally disagree with anything your colleagues have said? Do 
you want to start?
    And I will preface this by saying that I read all your 
biographies, and this is an exceptional panel. I don't know, 
Professor Cordesman, if you got your crustiness from John 
McCain or you gave it to him, but you are an accomplished 
author. We could put professor and author here. Such tremendous 
experience you bring to the panel.
    And Professor Sepp, your service to your country and your 
actual practical experience in the military.
    And Mr. Khalil, I was intrigued that you were involved in 
strategic planning basically for the military in Australia. Is 
that correct?
    Mr. Khalil. Yes.
    Mr. Shays. So you are a gift to this subcommittee, and I am 
looking forward to the dialog that will take place, but where 
would you disagree completely or in part with something already 
said by one of the three of you?
    Professor Cordesman.
    Professor Cordesman. I think there are two points, 
Congressman. One, my experience with this goes back to Vietnam 
when I was in the Office of the Secretary of Defense.
    Mr. Shays. Were you working for the Secretary of Defense at 
that time?
    Professor Cordesman. Yes. And I was working, at that point 
in time, in dealing with the training of our VN forces and the 
assessment of the intelligence structure in Vietnam. I think 
the one thing I would say is that we haven't the faintest idea 
of what the numbers of the insurgents are or the number of 
insurgents----
    Mr. Shays. Now, there is the absolute. When you say 
faintest idea. We have very little idea? I mean faintest idea 
is such a----
    Professor Cordesman. I think we learned the hard way after 
the liberation of Vietnam how bad it was in terms of our 
estimates of sympathizers, infiltrators and activists.
    Mr. Shays. What I'm going to ask is----
    Professor Cordesman. Congressman, I'm going to--we could 
mince words. Are our intelligence estimates of the insurgents 
today in numbers in any way reliable? No, they are not.
    Mr. Shays. OK, that's fair. What I just want to say to you 
is that I'm a pretty impressionable person. ``Faintest idea'' 
means we have no idea. But is the range so faint that it could 
be 200,000 to 10 million? Obviously, that's not the faintest 
idea.
    Professor Cordesman. As I say, we can play games.
    Mr. Shays. Give me a range.
    Professor Cordesman. I won't, because I really don't think 
we know. I have heard people come out with estimates of 
Islamists. I have worked with people in the intelligence 
community for 40 years. I don't find intelligence officers 
stand behind those estimates. I don't believe that there are 
50,000 Islamists, but I don't know that we know how many there 
are.
    I heard people began with 5,000 core insurgents. Now we are 
talking 20,000 to 30,000. But I think perhaps we don't 
disagree. I just don't know what the hell a core insurgent is, 
and I don't believe any two people can define it the same way.
    Mr. Shays. Fair enough.
    Professor Cordesman. When it comes down to the sympathizers 
with insurgents, the public opinion polls I have seen since the 
summer of 2003 indicate a very large number of Iraqis, both 
Shiite and Sunni, supported violence against the coalition. 
Now, does that mean they are going to provide arms or 
sanctuary? None of us know. But the numbers were so high, even 
in embassy polls in the summer of last year, that figures like 
200,000, which was a wag by the Iraqi Minister of Defense, 
originally, they simply don't mean anything.
    Mr. Shays. In fairness to our own folks, they have been 
reluctant to give numbers when Congress presses them for it, 
because, in part, we really don't know.
    Professor Cordesman. If you push the intelligence community 
hard enough, you will always get the number, and you get the 
number you deserve.
    Mr. Shays. Well said. I love the poll that was done, a very 
professional poll a year after we were there, and it said two-
thirds of the Iraqis want us to leave, and two-thirds want us 
to stay.
    Professor Cordesman. Well, one problem we have, in all 
honesty, Congressman, is if you break those polls out, and you 
actually read all 23 pages of them, and then go into them by 
area, they are often extremely useful. When they are summarized 
nationally, and people don't read the details, then you get 
exactly the results you have said. But it was something like 11 
percent of the Shiites surveyed and something like one-third of 
the Sunnis surveyed by the Oxford Analytical Poll, which was 
perhaps the best in late 2003, which supported violence against 
the coalition. How many of them would ever have lifted a finger 
to support this? I doubt it.
    But if I may, let me just make two points about where we 
may disagree. First, I don't believe training is, or ever will 
be by itself a way of creating mission capable forces. And I 
think General Luck, with his emphasis on putting U.S. advisors 
into combat teams, creating combat units with some kind of 
integrity and leadership, and creating units effectively 
trained on the job is what is going to have to be the only way 
that you can create forces approximately as large as the ones 
we need.
    The second point I would raise is, I don't believe we are 
there yet. I believe General Petraeus has done an outstanding 
job since June 2004. But remember, and I am quoting here 
figures from General Petraeus' office, we had one deployable 
battalion in June of last year; now, we have 24 to 27, 
according to General Petraeus, in the multinational command.
    I don't believe the national guard has been vetted or that 
it is anything like ready. And the latest figures I have 
indicate that we have just put 52 new battalions into the 
regular army, of which perhaps nine have any kind of mild 
competence.
    Mr. Shays. Is this the national guard you are making 
reference to?
    Professor Cordesman. We put two other brigades in when we 
merged the national guard. So people talk about merging the 
national guard into the army, but there were six other 
battalions added from other units.
    Mr. Shays. Are the units outside the army?
    Professor Cordesman. They are outside the army. They had 
names. One was the Defenders of Baghdad Brigade and the other 
was the Muthona Brigade.
    Mr. Shays. Kind of like what Souter set up? I mean it's 
their own individual private armies?
    Professor Cordesman. Well, they were sort of, not 
necessarily militias, but units created for special purposes by 
ministers or Governors.
    Mr. Shays. Gotcha.
    Professor Cordesman. The problem I have with this is when I 
look down this, you talk about training. You don't create a 
soldier in 8 weeks in the U.S. Army. You can fit him in because 
you can put him into a unit with proven combat experience, 
leadership, senior NCOs and people who have proven capability. 
Iraqis weren't trained at that level, even if we got the right 
ones.
    We are putting people into units created from scratch. In 
case after case, the leaders are still political. They are 
people who were appointed for the wrong reasons and aren't 
removed when they do not prove to be capable.
    Mr. Shays. OK. What else do you disagree with?
    Professor Cordesman. I think the other point is, we are not 
giving them the equipment they need yet.
    Mr. Shays. But did someone here say we were?
    Professor Cordesman. Well, when you say you have mission 
capable units, and I think Professor Sepp made the point quite 
well, if they do not have adequate communications, if they only 
have heavy machine guns and mortars, and they have no 
protective vehicles and cannot support themselves in movement, 
these are not mission capable counterinsurgency units. That is 
a description of all of the army units, except one battalion, 
which is mechanized, and two battalions of the elite police 
forces.
    Mr. Shays. OK.
    Anything that you would disagree with your colleagues on 
the panel, Professor Sepp? It may be an emphasis. I'm not 
saying completely disagree, but something they might have said, 
you would just disagree with them.
    Professor Sepp. The vetting process is not working. In some 
provinces, with a majority Sunni population or in the Kurdish 
areas, it is functioning. But in the four provinces that the 
Marine Expeditionary Force currently operates in, Al Anbar, 
Babil, Najaf and Al Qadisyah, there is no vetting.
    The senior Marine colonel in charge of liaison to the Iraqi 
security forces personally estimates that 75 percent of the 
police are insurgents or insurgent sympathizers.
    Mr. Shays. So is this the vetting with the police in 
particular?
    Professor Sepp. In the military forces as well, 
accountability in those kind of situations. He described going 
to three different company garrisons. Each company, again rough 
numbers, each company should have had about 100 people present. 
In total, at the three locations, there were five.
    During the second battle for Fallujah in November, when I 
was in Baghdad on the strategy team, the Marines were almost 
certain that they fought and killed insurgents that they had 
previously trained and equipped as national guard and police 
members. At the same time, in that same month, there was a bank 
robbery, because the payroll system had been turned over with 
the shift of sovereignty. It had been turned over to the 
Iraqis. The equivalent in dinars of about 4 million U.S. 
dollars was moved to a bank in Ramadi.
    The day after it arrived, the bank was robbed by armed 
insurgents wearing police uniforms issued by the United States, 
carrying Glock pistols issued by the United States, with 
knowledge of the bank that only police would have had. They 
didn't get away with all the money because there was so much of 
it; they had to leave about a quarter of it behind. They 
couldn't load it all in their vehicles.
    But this is the degree to which, in some provinces, that 
vetting is meaningless and that the insurgents have infiltrated 
the military police forces.
    Mr. Shays. Meaningless and not possible, or just not done 
well? And if you don't know, that's OK, too.
    Professor Sepp. That is a very hard question to answer. 
Those are the sort of things that could be fixed over time, 
over years, with the imposition of a government of security 
forces, or of incorrupt security forces in a system like that. 
But right now, vetting is meaningless in those provinces.
    Let me just add one thing. This is absolutely common to any 
counterinsurgency situation. I'm sure Professor Cordesman can 
give some very precise stories about these situations in 
Vietnam. When I fought in El Salvador, when Sergeant Greg 
Fronius was killed at El Paraiso there were 30 to 40 guerilla 
infiltrators that had joined the brigade that he was advising 
and that had started the initial attack against the cartel from 
the inside in a surprise attack.
    So this is very common. This has to be understood that this 
is simply going to be part of doing business and fighting an 
insurgency, and that I would be very concerned with broad 
statements about vetting is in place and is functioning and is 
centralized and is standardized. The people that have been 
there will tell you it's simply not true.
    Thank you, Mr. Chairman.
    Mr. Shays. Mr. Khalil.
    Mr. Khalil. Well, yes, I was there for 9 months, and I did 
point out quite clearly in the testimony that the vetting was a 
problem for the first year and a half, and that's because it 
was decentralized. As Professor Sepp was explaining, much of 
the vetting was conducted at a local military level. Now, as 
far as I understand it and even before I left, I was pushing 
very hard to have this centralized because of the problems with 
vetting in a decentralized manner.
    And we have to also ask, who are we talking about? Which 
forces and vetting are we talking about? The police and 
national guard are vetted locally, because they are locally 
trained and raised forces. The army was vetted, centralized in 
Baghdad, now under the Ministry of Defense and under General 
Petraeus' command. So as far as I understand it, General 
Petraeus has now command over police training and all national 
guard training. This national guard is now being put together 
with the Iraqi army, and there are improvements in those 
vetting procedures. You can only go one way, obviously, when 
the vetting was so bad to start off with.
    The only other point I would make, Mr. Chairman, and I do 
agree with Professor Cordesman that it is very difficult to 
talk about the numbers of the insurgents and pin down a number. 
That's because it's completely fluctuating constantly. There is 
movement across borders of foreign jihadists. Some people are 
joining the insurgency. Some people are dropping out. Some of 
them are being captured or killed. So it is very difficult to 
pin down numbers. But what you can pin down or improve is your 
understanding and the nature of the insurgency. And there has 
been great strides made in understanding that insurgency.
    I don't think 2 years ago we could be talking with as much 
knowledge about who makes up the insurgency as you are hearing 
on today's panel. And that's very important. I had a chance, 
for example, to sit down with the Governor of Ramadi, in Al 
Anbar Province and the tribal leaders, and they brought with 
them 15 ex-security personnel. And now, clearly, former 
Mukhabarat and Special Republican Guard guards who have lost 
their jobs and now clearly are part of the insurgency. But 
their main grievance was unemployment. They had lost their jobs 
and their status.
    So you can understand the insurgency. You can even 
negotiate with some of the more moderate elements of the 
insurgency. Of course, you have to sift out those who are 
guilty of crimes against the Iraqi people.
    Mr. Shays. Thank you.
    Yes, Professor Cordesman.
    Professor Cordesman. Just one point, Congressman. I think 
this is probably just an accident, but on the Department of 
Defense chart and, indeed, the one that I have provided, which 
is similar, a point about the police. It says there that 82,000 
are trained and equipped. What there is not--but is very clear 
in the reporting from the multinational coalition, is 35,000 of 
that 82,000 is scheduled for training. It is not trained and 
equipped.
    And this, I think, illustrates what happens when you take 
something this dynamic, and you try to pin your numbers down.
    Mr. Shays. Well, my sense of some satisfaction here is that 
we are starting to try to understand the numbers. But I have a 
sense from you, Professor, that you almost feel that it is 
useless; that the numbers are so meaningless as to why even 
bother.
    But you transition to the concept of capability, and there 
I would think we would all agree we would want those numbers.
    Professor Cordesman. I think, Congressman, what people are 
trying to do now, and reference was made in the previous panel 
to establishing metrics, is to take the, I think it is now 13, 
Ministry of the Interior administrative defense forces that we, 
through the multinational coalition, advise or train. There are 
many other elements, understand, that are not on those charts, 
of militias, police and other units, with either government or 
nongovernment support. Break them out by what we call order-of-
battle analysis, which may be familiar to you, so you get by 
battalion what the capabilities really are, what the history of 
the unit is, something about its leadership, whether you really 
believe this unit is ready yet.
    And you don't sort of reject forces because they can only 
man a checkpoint. You break the order of battle out so you look 
at the mission capabilities as well as these other factors. 
Now, that gives you the kind of numbers which, to some extent, 
you can trust. They will never be precise. You will never know 
whether a given battalion will break in combat. But if you go 
to that type of analysis, and I believe that is what the 
multinational coalition is doing, you will get there.
    But the fact is, it didn't make sense to try to do it until 
you had enough forces in the field that were actually becoming 
operational so the criteria changed. Up till now, you have been 
rushing since last June simply to create basic cadres that you 
can begin to deploy.
    Mr. Shays. OK. I am not looking for a long answer, but what 
I am hearing you basically say is that the numbers were almost 
meaningless before; that we can, over time, bring value to 
those numbers as we dissect it in ways to know who is capable 
and then where they are capable; that they may be capable here, 
not capable there; but then it becomes a bit difficult to then 
give these blanket overall numbers.
    In other words, what I am hearing you say is, you may have 
40,000 people capable, but they may only be capable in certain 
areas, and we are not even sure how we want them capable in 
every area. In other words, we are not even sure of the overall 
needs of capability. Or am I going off track here at the end 
here?
    Professor Cordesman. You have made all the key points. We 
are fighting a dynamic war. We are constantly adapting. The 
training, organization, everything has to change. The question 
is, are we creating, month by month, effective combat 
battalions and forces for the various missions that have to be 
performed?
    Mr. Shays. We do not have that chart in front of us, but 
what I am hearing you say is that we had first trained, and 
even that was questionable; we then went to those who were 
trained and had equipment, but even that is questionable 
because we don't know what kind of training and what kind of 
equipment as we firm that up; but the big key number is going 
to be, who is capable?
    Professor Cordesman. I think that's exactly right. If you 
look at page 18 of the testimony I have given you, all of those 
figures are taken from General Petraeus' command. Those kind of 
numbers break out in rough terms the mission capabilities of 
the forces. At that point, I think you get a picture of the 
kind of forces that are being created, and most of them are 
useful.
    Another way to look at it is simply to go back and break 
out each of these forces by actual element, for all 13 or 14 
elements, and then break out the elements within them. And 
those numbers will begin to give you a picture of real 
capability. And what is really striking is the amazing increase 
since June 2004 and the amount of momentum that the thing has 
been gathering since September 2004.
    Mr. Shays. I've had this dialog with the administration 
that when you admit mistakes where you went wrong--which to me 
is a logical thing to do--it helps you understand where you are 
and where you're going, and also it helps you see that maybe 
you've had progress. But if you've never made mistakes, it's 
like, well, they don't know all the things we overcame because 
of the mistakes we made that gives some value to what we've 
been doing.
    Let me have our counsel, ask a question or two.
    Mr. Halloran. I wonder if each of you could give me your 
views on de-Ba'athification and this proposed re-de-
Ba'athification that the emergent government is talking about 
and its impacts and likely impact on the security situation?
    Professor Cordesman. I think this is a horrible term. I 
have been visiting Iraqi since 1973. If you wanted to survive 
from 1979 on, you almost had to have some kind of link to the 
Ba'ath or you had to go into exile or you had to stand aside 
from virtually all the political, social and economic life. 
What you don't want back in here are people from the special 
security services, people involved in war crimes or atrocities, 
people who are former regime loyalists who today are supporting 
the regime. That is a tiny fraction of people who were part of 
the Ba'ath party. And I think this whole phrase De-
Ba'athification Commission--Ba'ath was originally pushed on CPA 
in part by people like Chalabi, who had a political agenda that 
had nothing to do with protecting the country or serving the 
national interest, but who basically were trying to minimize 
the opposition and create the climate through which they could 
acquire power.
    So what we really need is not de-Ba'athification, but 
simply to ensure that we're not going to bring back the people 
who were truly abusive in the past regime which, what, could be 
maybe some unknown fraction of the Ba'ath, but certainly closer 
to 5 percent than 15.
    Professor Sepp. What strikes me about this is that I don't 
know if it's well known or not, that immediately after World 
War II the U.S. Department of State had a very extensive 
program titled specifically the ``De-Nazification Program for 
Germany,'' a very complex and sophisticated document that 
showed an understanding of the German political scene and 
German culture.
    Having said that, there is nothing I can add to Professor 
Cordesman's comments, I think that he is exactly correct.
    Mr. Khalil. I too agree with Professor Cordesman. One thing 
I would add, though, is that Ba'ath party membership was, I 
think, about 2.5 million, or something like that, in Iraq. A 
third of those, as Professor Cordesman pointed out, were people 
who had to join the party to become a teacher or principal of 
the school or advance their career. Another third probably 
joined for positions of power, and a very, very small fraction 
were the real Ba'ath party ideologues, were those who really 
abused their power in those positions in the security sector.
    The problem is in bringing back people with experience, 
it's very difficulty to sort out who was actually abusing their 
position of power and who was just joining the Ba'ath party for 
membership. There are echelons of Ba'ath party membership which 
we're aware of as well. But I think something in the order of a 
truth commission or a reconciliation commission is really much 
needed in Iraq in the next year or two, because you will see 
competing pressures now from very much a Shiite government, if 
you would like, although with a British coalition pushing for a 
purging even of those former Ba'ath party members who are now 
part of the Government Ministry of Security Services, and then 
on the other side, people thinking, well, we need to bring 
these people back in because they have the requisite experience 
to help Iraq rebuild. So it's a key point of friction which 
will be coming to a head I think in next year, possibly once 
the government is formed, depending on its nature.
    Mr. Halloran. One more?
    Mr. Khalil, I think it was in your testimony you raised the 
prospect of training security forces and the specialized forces 
to be too successful, and that we re-empower some kind of 
police state in Iraq. How would each of you advise avoiding 
that pitfall?
    Mr. Khalil. Yes, that was one caveat I put to the--in terms 
of building up internal security forces, that you don't want to 
build too powerful a structure under the Ministry of the 
Interior that could challenge the balance of power. I think 
there is an important point here: There needs to be a legal 
framework in which it is very well understood how these forces 
are used in domestic security operations. Now, that's for the 
Army as well as for the internal security operations. At 
present we don't have that legal framework.
    I was involved in trying to push that legislation through 
when I was there. I think the Pentagon shied away from it 
because it thought that it would hinder the use of Iraqi 
security forces and security personnel in carrying the 
insurgency--of giving them free reign, if you'd like.
    But it's an important legal framework, because all 
democracies have it. Australia has it, you have it where we set 
out when and where the Armed Forces can be used in internal 
operations. And I think that's something that the future Iraqi 
government ought to seriously consider.
    Professor Cordesman. I think the only thing I would add to 
that is you need security forces that can deal with terrorism 
and which can deal with insurgency, and as Professor Sepp 
points out, you're probably going to need them for years to 
come.
    The counterbalance for this is not to create ineffective 
specialized forces, it is at the same time to strengthen a 
police force which can handle law enforcement that is bound by 
the rule of law. It is to strengthen the court system, it is to 
keep the pressure up for human rights. It is to carry out the 
kind of programs that IRI, or its democratic party equivalent, 
have started to ensure that ministers and officials and people 
who run for office understand that they really have human 
rights and legal efforts. And I think this really calls for 
something that we have on the books but where we simply haven't 
moved the money forward; and that is, you cannot simply go 
ahead and create effective military forces and not push all of 
those other aspects in our aid program designed to support the 
rule of law, human rights, develop governments, help educate 
people in creating modern political parties and in the 
responsibility of democracy.
    And I find it rather unfortunate that when you look at the 
tables on actual expenditures in those programs the spendout 
rate has been so low, and the spendout rate on security has 
been so high.
    Mr. Shays. I think we will be out of here in about 10 
minutes, but, is it your testimony that it's difficult to deal 
with counterinsurgency, very difficult, or impossible? In other 
words, should I be leaving this hearing thinking that it is 
almost impossible?
    I will tell you how I'm leaving it right now. I am leaving 
it with the thought I have never believed that--when people 
have asked me how long we will be in Iraq, I said how long have 
we been in South Korea? I mean, that's kind of my answer. But I 
also know the Iraqis don't want us around for 4 years. I mean, 
I believe that. I mean, maybe some of their leaders do. But my 
own reading of the Iraqi culture is they are not going to want 
us there, and so I am wrestling with that.
    I am leaving this hearing believing that we, I don't want 
to say have turned the corner, but at least we know what it 
takes to do it right, and we are in that process. But I'm 
leaving with the sense that there are so many things we could 
be doing that would make it more likely to reach success a 
little sooner, and we're not doing that.
    But I am left with the feeling--when we started out your 
panel--with the thought of all the places we have failed to 
deal with insurgency. And let me just then also say I'm having 
a hard time understanding whether insurgents are under 
terrorists or terrorists are under insurgents. I'm not quite 
sure where the heading is and I'm not quite sure--are they 
equal, is it just another name? Or are they a part of 
terrorism?
    So why don't we start with you, Professor Cordesman?
    Professor Cordesman. First, I think insurgencies can be 
defeated. All insurgencies differ, and terms are used very, 
very carelessly. We weren't defeated in Vietnam by insurgents, 
we were defeated by main force core elements of the North 
Vietnamese Army. Those were units using tanks, artillery, and 
basically invading. They were not the insurgents. Those might 
have been the core of the Tet offensive, although even there 
there were strong NVA elements.
    What we have here is a different situation, however. We're 
talking, at most, 20 percent of the population is Sunni; and 
significant numbers of Sunnis are not pro-insurgency. We're 
talking four to six provinces where there is a significant 
popular base, but those are by no means unanimous, and the one 
that has the strongest area, in some ways in support for the 
insurgencies or terrorists--whatever you want to call them--is 
our Anbar Province, which they have 5 to 6 percent of the 
entire population of Iraq.
    If we can create Iraqi forces that can stand on their own 
and convince Iraqis that Iraqis will defeat the insurgency--not 
American that's one key. If the Iraqis themselves emerge out of 
this election showing that they can govern, compromise and 
create a state which will include those Sunnis who wish to be 
part of a government based on democracy, or at least 
federalism, that would be another critical step and help bring 
victory.
    If we can go from the aid program we have today to some 
coherent strategy for using that money which relies on Iraqis 
and meets Iraqi expectation, rather than some kind of strange 
plan we developed here in Washington, and we can get money to 
the people so they can see hope, then I think that too can 
defeat this insurgency.
    What we talked about in terms of defeat doesn't mean that 
extremists vanish. There will be people who are Ba'ath 
loyalties angry at us, Islamist extremists, probably in Iraq 
almost indefinitely into the future. There will be car 
bombings, there will be suicide bombings, there will be 
assassinations, and there will be violence. That will probably 
counter-eliminate at least within the near term. So victory 
will always be relative.
    Mr. Shays. OK, thank you.
    Professor Sepp. I wanted to make another historical point, 
Mr. Chairman, just to reenforce what Professor Cordesman said.
    In Vietnam, the Viet Cong, the insurgents, were actually 
defeated by the Vietnamese police and intelligence services by 
the late 1960's through the Wong Hong series of operations that 
they conducted. The point was that insurgencies are difficult, 
but they can be managed if it's understood how to do that.
    For the U.S. Armed Forces, my point and my testimony is it 
will be very difficult because they don't have experience or 
education in it, and they're trying learn it in a very, very 
compressed time right now, and----
    Mr. Shays. Are you saying the U.S. Forces?
    Professor Sepp. U.S. Force, yes, sir. And a point would be 
the plan, the classified campaign plan for Operation Iraqi 
Freedom that exists, is not a counterinsurgency plan. They are 
writing one right now. But I am aware as briefly as 2 weeks ago 
that there are still debates about key points inside that plan. 
Until that comes together, it would be very hard to imagine 
that all these other components could be unified to accelerate 
the end of the insurgency.
    Mr. Shays. Mr. Khalil.
    Mr. Khalil. Mr. Chairman, very difficult, I think, but not 
impossible to fight the insurgency.
    And your point about whether they're terrorists or 
insurgents, a small element of the insurgents do carry out 
terrorist activity; usually the Jihadists and some of the Iraqi 
Wahhabists that are part of that. Often many Iraqis say to me, 
we don't agree with these tactics, we don't want to see the 
United States and Coalition forces in our country. But that 
doesn't necessarily translate to support of the insurgents, 
particularly those who are conducting terrorist attacks on 
civilians and others.
    Mr. Shays. Do you happen to speak Arabic yourself?
    Mr. Khalil. I do, sir, yes.
    Mr. Shay. So you've had opportunity to speak----
    Mr. Khalil. It was very helpful in meeting--I didn't just 
work with the Iraqi political leadership of Allawi and Hakim 
and the rest of them; I met with a lot of tribal leaders across 
the country, heads of universities, that kind of thing. And 
obviously with our RDC leadership and the interim leadership as 
well. But I tried to get out there and meet with as many Iraqis 
as possible.
    Mr. Shays. Do you see that it's likely that the Iraqis 
would allow American troops to be in Iraq 10 years from now?
    Mr. Khalil. The majority of the Iraqis don't want to see 
that, that's quite clear. The majority, probably 80 or 90 
percent, would want all United States and Coalition forces out 
of their country in the long term.
    Mr. Shays. And if they're experiencing a true democracy, 
then we won't belong.
    Mr. Khalil. That is usually the case, yes. But the point 
about that is, Mr. Chairman, is although most Iraqis of 
whatever sectarian background or ethnic background don't want 
to see foreign forces on their soil, they don't necessarily 
support what the insurgents are trying to do as far as derail 
the political process in the future, democratic or not. And in 
fact, if you look at the numbers--again we head back to numbers 
as a thing today--but if you look at the number of Iraqis 
who've joined the government ministries as civil servants, who 
joined the new security forces, there are hundreds and 
thousands of Iraqis, as you were saying earlier in your 
statement, putting their lives at risk and their families' 
lives at risk because they believe in a future democratic state 
in Iraq, and all those people that were working on the 
elections as well, so they vastly outnumber those insurgents 
who are trying to derail that process.
    And the other important point----
    Mr. Shays. Let me just say, with a caveat that I've learned 
from all of you, that some of those may in fact be insurgents 
themselves. They want a job, they want to be paid, and if they 
can work for the government, nothing wrong with that.
    Mr. Khalil. I would estimate that those infiltrating 
security services are a very small percentage. I wouldn't go as 
far as saying 75 percent at all. It depends on the service, of 
course, but there was a level of infiltration that has been 
cleaned out over the last 6 months as well.
    It is true, there are many Iraqis who have joined the 
services to get a job, but there are many of us in our 
countries who join the public service for a good paycheck as 
well; that doesn't translate into supporting the insurgency.
    Mr. Shays. Right. No, I wasn't trying to suggest that, but 
I'm just suggesting folks want a job, they want to make a 
contribution and so on; but the implication is that we can't be 
certain that everyone who's doing that is doing it without an 
alternative motive, that they also may want to be part of the 
government, and they may be very sympathetic. I mean, one of my 
staff was in Jordan with training the police, and it was during 
the time of the conflict with Sadr, and they were singing a 
song in Arabic. And he asked them what they're singing, and it 
was ``You kill Sadr, we kill you.'' this was the police in 
Jordan.
    When I was in Iraq, we asked about that and how it could 
happen. And I was told, frankly, that even Mr. Bremer didn't 
realize the number of police people that he was seeing around 
the country, and it was well above what he had thought it was 
supposed to be.
    Mr. Khalil. I'm glad, Mr. Chairman, that you mentioned 
Muqtada al-Sadr, because he's a very important example. In 
fact, the fighting that was going on in Najaf and Sadr City had 
a lot of people shaking their heads and a lot of people worried 
about this. What has transpired, of course, is that Sadr has 
been brought into the political process through pressure by 
Sistani, through negotiations allowing the interim Prime 
Minister, and so on. But the end result is that this particular 
group has decided that they're not going to reach their 
political goals by use of force; that they're going to join the 
political process. Now Sadr has, I think, three or four members 
of the National Assembly that come from----
    Mr. Shays. He has more than that, actually.
    Mr. Khalil. Twelve, maybe, I think it might be. And that 
template can be used for a lot of the moderate Sunni resistance 
as well.
    Mr. Shays. OK, what I would really love to do is invite you 
all over to my house and have dinner because I would like to 
continue this conversation, because I find it fascinating and 
extraordinarily helpful. This has been a wonderful panel, and 
we are blessed that all of you of such stature would come 
before us today with such knowledge.
    Is there any closing comment that any of you would like to 
make? I will start with you, Mr. Khalil. Anybody?
    Professor Cordesman. Just one comment. One of the things we 
lack most as a country is a sense of history and patience. If 
we demand too much too quickly, we will, of course, fail. I 
think that what we really need gradually is to teach ourselves 
patience. As long as the Iraqis are moving forward, as long as 
we can see progress, as long as the aid programs work, more 
people are trained, we see elements of democracy. We need to 
persist and to continue to support this effort.
    What we cannot afford is to set deadlines or demand instant 
success or set standards based on U.S. expectations rather than 
Iraqi expectations. I think if we are patient and dedicated, we 
have a very good chance of giving this war real meaning; but if 
we demand too much too quickly we can fail, because we defeat 
ourselves. Thank you.
    Mr. Shays. Any other comment? Yes, Professor Sepp.
    Professor Sepp. Mr. Chairman, I would again reinforce 
Professor Cordesman, saying the example is El Salvador, where 
U.S. policy to support a new and emerging democratic government 
in the face of an insurgency was sustained through three 
administrations to its final result where the insurgency was 
beaten to a draw and the insurgents came to political 
settlement of the war. This can be done, but it will take the 
patience that Professor Cordesmen is calling for.
    Mr. Khalil. One last point, Mr. Chairman. I think whatever 
your moral position was about the war in the first place, I 
think if we're going to talk about morality, it is immoral to 
drop any support for helping Iraqis develop their future 
democratic state. It's immoral to do so and it would cause a 
great deal of suffering right now.
    So I think I agree with Professor Cordesman and Professor 
Sepp as well. We need to continue that effort of assistance, 
both at the security level, but also in the political and 
economic reconstruction areas, because they're just as 
important as security in defeating the insurgency.
    Mr. Shays. Well, I think that we are in a very important 
mission in Iraq. You have my support. I even ran during the 
last election on that issue and said, you know, if my 
constituency doesn't agree with it, then on that grounds find 
someone else. But, you know, Nicholas Palarino has been with me 
on all our trips, and obviously organized them--but when you 
meet someone who was literally locked in her house for 10 
years, literally, not allowed to go outside because her parents 
thought she was very beautiful and would attract the attention 
of Saddam's two sons, you know--and when you visit the killing 
fields--and, thank goodness Saddam is no longer in power.
    Thank you all very, very much. With that, the hearing is 
adjourned.
    [Whereupon, at 2:37 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
